                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General



    A
Office of Inspector General


                                                 Office of Inspections

                                                    Inspection of
                                            the Bureau of Educational and
                                                   Cultural Affairs

                                            Report Number ISP-I-12-15, February 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                            1
Context                                                  3
Executive Direction                                      4
Policy and Program Implementation                        8
   Office of Policy and Evaluation                       8
   Office of Academic Exchange Programs                 11
   Office of English Language Programs                  13
   Office of Global Educational Programs                15
   Office of Citizen Exchanges                          16
   Office of International Visitors                     19
   Office of Private Sector Exchange                    22
Grants Management                                       32
Resource Management                                     37
Information Management and Technology                   46
Security                                                52
Management Controls                                     54
List of Recommendations                                 55
List of Informal Recommendations                        63
Principal Officials                                     67
Abbreviations                                           68




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments

   •   The Bureau of Educational and Cultural Affairs’ (ECA) prestigious exchange programs
       enhance mutual understanding and are increasingly aligned with foreign policy priorities.
       However, long-standing institutional weaknesses undermine ECA’s effectiveness.

   •   Some ECA employees resist adopting processes fundamental to operating efficiently
       within the Department of State (Department).

   •   The ECA/Bureau of International Information Programs (IIP) executive office should be
       restructured to improve management oversight and increase efficiency, particularly with
       respect to human resources operations and support services.

   •   Significant increases in annual exchange visitor visa issuance have left ECA struggling to
       oversee the more than 1,200 sponsor organizations responsible for ensuring positive
       cultural exchange experiences for participants, many of whom are youth.

   •   Public criticism of the Summer Work Travel (SWT) program is the most recent negative
       consequence of unfettered growth and weak regulation of privately funded exchanges.
       ECA should strictly limit SWT until it can provide proper oversight.

   •   ECA lacks fully developed strategic planning mechanisms for its programs, some of
       which should be consolidated or sunsetted. Work programs having little to do with either
       education or culture should be transferred to the Department of Labor or eliminated.

   •   Grants officer representatives do not adequately perform monitoring and evaluation
       responsibilities, creating vulnerabilities in program implementation and oversight of
       funds. ECA has more than 100 outstanding grants awaiting closeout; once that step is
       complete, the bureau will be able to deobligate an estimated $4 million.

   •   ECA does not have an effective Equal Employment Opportunity (EEO) program.

   •   Embassies use their own funds for exchange activities without informing ECA, raising
       issues of coordination and conformity with established standards.

   •   ECA’s systems and applications do not meet all user needs due to the absence of
       stakeholder participation, systems documentation, and management review and approval
       throughout the development process.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 28 and December 1, 2011.
OIG did not visit the East-West Center in Hawaii, but two team members visited New York City.
                                          1
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Ambassador Kevin McGuire (team leader), Donna Roginski (deputy team leader), Colleen
Ayers, Boyd Doty, Richard English, Kate Hoops, Cindy Kelson, Deborah Klepp, Christopher
Mack, Louis McCall, Dan McCollum, Keith McCormick, Vandana Patel, Iris Rosenfeld, and
Terry Rusch conducted the inspection.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        ECA is the largest of the three bureaus reporting to the Under Secretary for Public
Diplomacy and Public Affairs (R) and is a primary pillar of the Department’s smart power.
ECA’s purpose, as defined by the Mutual Educational and Cultural Exchange Act of 1961
(Fulbright-Hays Act), as amended, is to “increase mutual understanding between people of the
United States and other countries by means of educational and cultural exchange…to promote
international cooperation.”

        ECA’s oldest programs are widely recognized and highly regarded. Fulbright
scholarships are as prestigious today as when they were first offered a half century ago.
International Visitor Leadership Program and Humphrey fellowships continue to increase cross-
border contacts among professionals and enhance understanding of U.S. society and values. The
impact of ECA’s traditional programs is clear: 53 current and more than 300 former heads of
state or government are program alumni, 52 are Nobel Prize winners, and 46 are current
members of the U.S. Congress. ECA’s newer programs—aimed at youth, girls and women, and
underserved populations—and its forays into outreach via social media are also winning the
United States friends in new quarters.

        However, the popularity and success of ECA programs mask other problems. Lengthy
gaps in senior leadership have contributed to the incomplete integration of the former U.S.
Information Agency with the Department, after more than a decade. Persistent problems include
poor internal communication, stovepiping of programs and personnel, difficulty in adjusting
programs to reflect changing national priorities, and weaknesses in human resources operations.

       Breakdowns in program management and the financial probity of some major grantees
have spotlighted the need for major improvements in bureau oversight. Demonstrations in
summer 2011 by participants in ECA’s SWT program raised labor and human rights concerns,
drew negative national media coverage, and provoked questions about the Department’s
administration of the program.

        ECA has more than 450 staff members (not including approximately 80 contractors) and
a program budget exceeding $633 million that is supplemented by $36 million in U.S.
Government transfers and more than $85 million in funding from foreign governments and
private sources overseas. ECA is bracing itself to defend funding of its 140 programs against
expected budget cuts. Recent efforts to plan resource use around strategic policy priorities raised
concerns among some ECA staff members that such an approach would threaten traditional
allocations to country programs.




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Executive Direction
       ECA leaders are making real progress in matching resources to Department priorities.
However, long-standing institutional problems such as poor internal communications, inadequate
program oversight, insufficient work force planning, low morale, and deficiencies in equal
employment opportunities require urgent attention. ECA leadership has been responsive to
recommendations proposed during the inspection.

Leadership, Mission, and Goals

        The ECA Assistant Secretary arrived in July 2010. In 2011, she brought in a new
principal deputy assistant secretary, two new deputy assistant secretaries, a new acting deputy
assistant secretary, and a new director for the Policy office. They form a cohesive team that
asserts it is determined to strengthen ECA both institutionally and from a policy perspective.
Progress has been hindered by a variety of factors, including the assignment of the Assistant
Secretary in July 2011 to serve as the interim Under Secretary for R. During the inspection the
principal deputy assistant secretary acted as Assistant Secretary.

         ECA’s Bureau Strategic and Resource Plan describes its mission as using people-to-
people diplomacy to advance U.S. foreign policy objectives and to foster international
understanding. In recent years, ECA has increased its involvement in U.S. foreign policy
priorities in Iraq, Afghanistan, and Pakistan, and with Muslim communities around the world.
The Arab Spring is leading to new program opportunities. Educational and cultural cooperation
are important components of bilateral initiatives with India, Indonesia, Brazil, and other
countries. ECA has increased engagement with youth, underserved populations, and women and
girls. It has achieved these objectives within its traditional programs as well as by using new
technologies, expanding English language teaching, enhancing educational advising operations,
and increasing engagement with alumni of U.S. Government exchange programs.

        In mid-2011, R solicited feedback from posts and regional bureaus on policy needs and
program impact, sharing for the first time the costs of various ECA programs. This exercise
provided an improved basis upon which to adjust programs to meet policy imperatives and
funding constraints. Initially, many in ECA resisted the new planning tool. ECA’s revitalized
Policy unit is now working closely with R on budget questions and developing closer working
relationships with regional bureaus.

        Based on these efforts, ECA is launching a strategic program priority and budget
planning exercise. The ECA deputy assistant secretary (DAS) for Professional Exchanges
recently engaged her entire staff in a division-by-division review of all its programs. This
process provides a basis for decisions on future resource allocation. The effort is unusual in ECA
in allowing staff to participate directly in resource planning and decisionmaking.

Recommendation 1: The Bureau of Educational and Cultural Affairs should conduct strategic
budget planning exercises for all its program offices using the review in the Office of
Professional and Cultural Exchanges as a model. (Action: ECA)


                                          4
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 1: The Bureau of Educational and Cultural Affairs should
       take into account in its resource use analysis the results of recently initiated planning
       efforts within the bureau, as well as data from nonbureau sources, and develop standard
       procedures for cooperating with embassies and regional bureaus on resource planning.

        Consultation with Congress will be an important part of any resource use reevaluation. A
number of ECA programs are congressionally mandated or otherwise subject to earmarks.
Implementing organizations and foreign participants that benefit from ECA programs will resist
changes that adversely affect them. This reality makes it harder for ECA to right-size programs
or close them. Nonetheless, leadership must take the necessary steps in this area so that funds
will be available for higher priority programs with greater foreign policy relevance. As part of
this process, ECA already is strengthening its outreach program to facilitate greater public
understanding of ECA programs and their importance to America’s foreign policy.

Institutional Structures and the Human Dimension

        ECA’s leadership needs to provide stronger program oversight. SWT is an example of a
program that suffers from overexpansion, poor supervision, and weak compliance regulations.
The section on the Office of Private Sector Exchange has recommendations for the future. More
focused attention by ECA’s leadership is required on programs for youth and other vulnerable
groups and for the non-ECA-supported exchanges organized by posts. Recommendations on this
issue appear in the section on the Office of Citizen Exchanges.

         Internal communications also require attention. There are many dedicated but unhappy
employees in ECA. Many feel underappreciated and poorly informed, some believe workloads
are unevenly distributed, and others complain that travel and training are limited to a select few.
The stovepiped organization of ECA has traditionally discouraged information flow across
organizational pillars; the situation is not much better within offices. Off-sites are rare; town hall
meetings are even rarer. The 2004 OIG inspection report flagged communication as an important
factor contributing to staff discontent. Recently, ECA leadership began distributing to all bureau
staff reports on developments of current interest, an effort that the OIG team supports.

Recommendation 2: The Bureau of Educational and Cultural Affairs should implement a
written plan to hold at least three town hall meetings annually and require all offices that have
not had off-sites in the past 2 years to do so in 2012, perhaps in the context of beginning their
strategic reviews. (Action: ECA)

Recommendation 3: The Bureau of Educational and Cultural Affairs should implement a
written policy that requires all office directors to meet with their staffs at least twice monthly and
all senior managers to attend working level meetings and visit individual offices. (Action: ECA)

Recommendation 4: The Bureau of Educational and Cultural Affairs should share with all
bureau staff its weekly highlights report to the Under Secretary for Public Diplomacy and Public
Affairs and its weekly senior staff meeting notes. (Action: ECA)

        The relationship between Foreign Service and Civil Service personnel in ECA is
unsatisfactory. Current leadership is increasing the Foreign Service presence in ECA to facilitate
                                            5
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

greater connectivity to the field. This goal has caused concern among Civil Service employees
about advancement opportunities and other issues. Morale would benefit from better
communication between these two groups. Training for supervisors from both groups on the
preparation of performance evaluations in the other system would also help, as would mentoring
and increased opportunities for training and more excursion tours for Civil Service staff.

       Informal Recommendation 2: The Bureau of Educational and Cultural Affairs should
       sponsor workshops for both Civil Service and Foreign Service supervisors to improve
       understanding of performance review preparation in both systems.

       Informal Recommendation 3: The Bureau of Educational and Cultural Affairs should
       implement a policy to upgrade Civil Service staff opportunities through support for short-
       and long-term excursion tours.

        Bureau leadership has not committed ECA to a comprehensive best practices program on
EEO issues. Although the inspection team found only five formal complaints, perceptions of
discrimination persist. A formal recommendation is provided in the Resource Management
section of this report.

Workforce Planning

       As ECA’s budget has grown, so has its workforce. International developments and the
bureau’s commitment to align its programs more closely with Department priorities suggest that
there will be more demands of ECA in the period ahead. In light of that prospect, space
constraints, and the very real possibility of slow, no, or negative budget growth in the future, the
OIG team advises the bureau to develop a strategic work force plan. The team believes the
bureau’s extensive use of contractors deserves special attention.

Managing Paper Flow

        ECA officials are frustrated with bureau management of paper flow to and from the front
office. Senior officers have difficulty getting well-drafted papers in a timely fashion. Drafting
officers do not receive instructions that would clarify for whom they are writing and why. This
problem is compounded by the lack of a uniform database of basic information, such as the
number of participants in individual programs or the number of programs (and participants) in a
single country. ECA uses a top-down system for clearing, so even simple requests for
information must go through the front office. The result is wasted time, eroded morale, and
embarrassing delays. An internal review is under way; its outcome will depend on the depth of
front office commitment to getting it right.

        The OIG team identified steps the bureau could take to streamline paper flow, including
limiting the number of official taskings and defining who can generate them; maintaining a log
to track the status of taskings; delegating authority to respond to routine requests to the lowest
level possible; reducing the number of layers in the process by directing taskings to the offices
responsible for issues rather than to intermediate special assistants; including in all taskings brief
instructions on desired formats and the purpose of the information; and providing drafters with a
comeback copy of the changes made at intermediate levels.
                                            6
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 5: The Bureau of Educational and Cultural Affairs should revise its system
for managing paper flow to achieve a more streamlined process and issue new guidelines to all
bureau staff. (Action: ECA)




                                          7
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
        ECA has a complex organizational structure. The bureau is divided into eight large
offices, each of which has multiple subunits, manages one or more broad categories of programs,
and reports to either the principal DAS or one of three DASs. The work of the offices and the
OIG team’s recommendations for improvement follow.

Office of Policy and Evaluation

       The Office of Policy and Evaluation has four largely autonomous components that
provide crosscutting support for bureau activities. Greater strategic prioritization and
streamlining of responsibilities would help all four components cope with increasing workloads.

Policy Unit

        ECA doubled its policy team to increase coordination with regional bureaus and advise
how ECA programs could support foreign policy goals more strategically. The unit and its new
director have worked hard to overcome initial misunderstanding of the unit’s role. More needs to
be done, however, if the unit is to play the coordinating role that ECA leadership envisions.

       Informal Recommendation 4: The Bureau of Educational and Cultural Affairs should
       issue a Department Notice on the role of its Policy unit, specifying the responsibilities of
       and contact information for each staff member.

        Department bureaus and overseas missions increasingly turn to ECA to request urgent
programming. However, ECA cannot make program adjustments quickly. Bureau funding is
usually already allocated, and few grants and contracts have rapid response capability. As a
result, ECA policy and program officers resort to adjusting existing programs that can
accommodate change rather than offering programs that best suit new policy needs.

Recommendation 6: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Under Secretary for Public Diplomacy and Public Affairs, should implement
programmatic and funding mechanisms so that bureau programs can respond effectively to
urgent policy needs. (Action: ECA, in coordination with R/PPR)

        The Policy unit coordinates the Bureau Strategic and Resource Plan. The FY 2013 plan
has overlapping goals and only half of its performance indicators are outcomes. The bureau
cannot use the plan to review progress, break down stovepipes, or achieve synergies, potentially
resulting in wasted effort and lost opportunities.

       Informal Recommendation 5: The Bureau of Educational and Cultural Affairs should
       use the process of preparing its next strategic planning request to set clearer priorities,
       better measure performance, and increase coordination.




                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Alumni Affairs Division

        The Alumni Affairs division conducts activities and supports the efforts of overseas
missions to engage the 1 million alumni of ECA-funded programs—a bureau strategic priority.
Alumni engagement is integrated into every Mission Strategic and Resource Plan and virtually
every high-level visit and initiative. Although the division’s budget has increased, strategic
planning, bureau processes, and information technology (IT) tools have not kept pace.
Competing priorities pull its staff in multiple directions. On the OIG team’s advice, the division
chief began developing a vision and strategy for a worldwide network of partnerships between
posts and alumni associations, with exchange participants from all U.S. Government agencies.
The next step is to determine how to prioritize the division’s work and funding.

       Informal Recommendation 6: The Bureau of Educational and Cultural Affairs should
       formulate and implement goals for alumni engagement, a strategy to achieve these goals,
       and criteria to prioritize resource allocation.

        Another bureau goal is to engage alumni of all U.S. Government agencies. The division
is close to an agreement with the U.S. Agency for International Development on including its
alumni in Department-run alumni programs. Involving the Interagency Working Group on U.S.
Government-Sponsored International Exchanges and Training (IAWG) in this effort would allow
the U.S. Government to better leverage its significant investment in exchange programs.

       Informal Recommendation 7: The Bureau of Educational and Cultural Affairs should
       work with the Interagency Working Group on U.S. Government-Sponsored International
       Exchanges and Training to implement a strategy that incorporates exchange participants
       from all U.S. Government agencies into its work.

         ECA’s premier vehicle to engage alumni is the State Alumni Web site, with 87,000
registered alumni. Less than half of ECA’s alumni register annually to use the site, while some
would-be registrants cannot access the site because program offices have not provided the
Alumni Affairs division the required information. In a summer 2011 pilot, the division attained a
100 percent registration rate for U.S. exchange participants by describing the Web site at their
predeparture briefings and following up with an immediate email containing a link to register for
the site.

        Embassy public affairs sections process most of ECA’s exchange participants overseas;
bureau program offices and implementing partners process the remainder. Requiring the entity
that processes exchange visitors to preregister them on the State Alumni Web site would increase
alumni registration rates, improve data accuracy and reporting, and reduce the daily workload of
alumni coordinators in Washington.

Recommendation 7: The Bureau of Educational and Cultural Affairs should implement a plan
for overseas public affairs sections, bureau program offices, and implementing partners to
preregister exchange participants on the State Alumni Web site. (Action: ECA)

       Three of the bureau’s 4 parent databases are linked to the alumni archive, which houses
almost 700,000 alumni records. A significant amount of the archive information is inaccurate or
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

missing because posts, program offices, and implementing partners are not entering it correctly
or in a timely fashion. This prevents division staff from reporting effectively to bureau leadership
and from verifying registrants for the State Alumni Web site.

Recommendation 8: The Bureau of Educational and Cultural Affairs should establish standard
operating procedures for program offices and implementing partners to enter exchange
participant data accurately and expeditiously into the appropriate bureau database. (Action:
ECA)

       Many overseas missions find the alumni archive cumbersome and do not fully utilize it.
The archive does not operate well in the low bandwidth environment of many overseas missions
and has missing and duplicate records because it collects from a variety of sources. ECA may
need to rebuild the alumni archive and develop a lite version for post use.

Recommendation 9: The Bureau of Educational and Cultural Affairs should conduct a needs
assessment to improve the alumni archive and make it more functional for overseas missions.
(Action: ECA)

Cultural Heritage Center

        The Cultural Heritage Center provides expert advice to the Department on global cultural
heritage and preservation issues, including U.S. compliance with the 1970 UN Educational,
Scientific, and Cultural Organization’s convention prohibiting the illegal import of protected
cultural property. It also administers the Ambassadors Fund for Cultural Preservation. The
Center supports the 11-member Cultural Property Advisory Committee, whose Presidentially
appointed members advise him on U.S. protection of cultural heritage property.

Evaluation Unit

         The Evaluation unit carries out independent evaluations, conducts internal performance
measurements, and provides technical guidance to bureau and Department offices as well as to
other U.S. Government agencies. The unit, program offices, and implementing partners all
conduct various kinds of evaluations of bureau programs, but the bureau has not linked this
patchwork of efforts into a coherent continuum. The bureau thus does not have systematic
performance results to supplement feedback from overseas missions when deciding on potential
funding shifts. The bureau also lacks a strategic plan for prioritizing which programs need
internal performance measurement and which need independent evaluation. Performance
measurement is labor intensive; retrospective multicountry evaluations cost on average $600,000
each. Failing to look at them strategically means ECA is not deriving full value from its large
investment of time and money. Compounding the problem, performance measurement and
evaluation reports often do not delve sufficiently into how the bureau could improve the
programs. Working with an organizational development specialist would facilitate the unit’s
efforts to integrate evaluations into all of the bureau’s programs.

Recommendation 10: The Bureau of Educational and Cultural Affairs should implement a
strategic evaluation plan that integrates evaluation systematically into program design, prioritizes

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

which programs to evaluate and how, and produces reports that provide leadership with
information on which to base resource decisions. (Action: ECA)

Recommendation 11: The Bureau of Educational and Cultural Affairs, in coordination with the
Foreign Service Institute, should secure the services of a facilitator to advise the bureau on how
to integrate performance measurement into every bureau program. (Action: ECA, in coordination
with FSI)

         The unit has published no evaluation reports since May 2010. One reason is the delays
caused by the staff’s submitting all proposed survey questions to the Office of Management and
Budget to comply with the Paperwork Reduction Act, whose primary intent is to reduce the
paperwork burden on U.S. citizens and small businesses. It appears that the Act may not apply to
most of the unit’s surveys, which are directed at foreign nationals outside the United States.
Compliance with Act requirements delays surveys by months and costs hundreds of hours of
staff time.

Recommendation 12: The Office of the Legal Adviser should request a decision from the
Office of Management and Budget on the extraterritoriality of the Paperwork Reduction Act.
(Action: L)

        The Evaluation unit is retooling its procedures and promoting collaboration with program
offices to increase the bureau’s performance measurement capability. Hindering the effort,
however, is the e-GOALS database system, which cannot accommodate current survey methods,
does not perform needed statistical analysis, uses an outdated platform, has questions that cannot
be altered, and cannot generate reports easily.

Recommendation 13: The Bureau of Educational and Cultural Affairs should implement a
survey system that meets bureau needs for performance evaluation. (Action: ECA)

Office of Academic Exchange Programs

        ECA has not reviewed all its academic exchange programs to determine which are cost
effective and meet current policy goals and to adjust priorities and funding accordingly. The OIG
team also recommended that ECA complete its review of Foreign Affairs Manual (FAM)
provisions on academic exchanges and issue guidelines to ensure that embassies are included in
communications with Fulbright commissions overseas. The OIG team found problems in the
operation of the Fulbright Foreign Scholarship Board and recommended corrective measures.

       The FY 2011 congressional appropriation for Fulbright scholarships and related programs
was $237.7 million; more than 10,000 individuals participated. Foreign governments contributed
approximately $85.2 million to support the program. Over the years, ECA has initiated multiple
new Fulbright programs: there are now 14 major award categories and multiple special-focus
programs. Often ECA receives no additional funding for new initiatives but instead must
reprogram existing resources. Despite its prestige, the Fulbright program is vulnerable to
budgetary reduction; however, ECA has not examined where potential cutbacks would be least
harmful to the program.

                                         11
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 14: The Bureau of Educational and Cultural Affairs should conduct an
analysis of all its academic exchange programs, drawing upon external as well as internal
sources, issue a report assessing their cost effectiveness, and use this information to establish
funding priorities. (Action: ECA)

       Academic Exchanges staff earned high marks in OIG’s survey of embassies. The single
exception was the tendency of some to deal directly with members of Fulbright commissions and
exclude embassy staff from such communications.

        Fulbright programs may be run by U.S. embassies or binational Fulbright commissions,
which are independent bodies established by agreement between the United States and a foreign
government. An embassy representative always serves on the binational governing board that
oversees a commission’s work. Failing to include the embassy in messages to commission staff
may be appropriate for some routine administrative matters but not for communications with
policy implications. At the same time, embassy representatives on binational boards must
understand their roles, exercise their fiduciary responsibilities, and represent U.S. interests in
setting Fulbright program priorities.

Recommendation 15: The Bureau of Educational and Cultural Affairs, in coordination with the
regional bureaus, should issue guidelines so that the relevant embassy is included in
communications from the bureau to binational Fulbright commissions; the guidelines should also
advise embassy representatives on binational governing boards of their oversight and
management responsibilities. (Action: ECA, in coordination with EAP, EUR, NEA, SCA, and
WHA)

        Morale in Academic Exchanges is mixed. Staff members are dissatisfied with what they
see as micromanagement where documents, including grant proposals and even travel requests,
are edited repeatedly at higher levels. The constant rewriting slows the flow of paper and delays
decisions. Equally disturbing, this approach creates a disincentive for program officers to review
their own work. The OIG team counseled the leadership of Academic Exchanges on the issue
and discussed ways to obtain better written products from program offices.

       ECA last revised FAM provisions relating to academic exchanges in 2002. Since then the
bureau has added new programs and eliminated others. Draft revisions prepared by the Academic
Exchanges office have not moved forward, as various officials raised questions but failed to
resolve them. The office needs to finish this process and, as recommended in the Resource
Management section, follow the established procedures to obtain final approval for the revisions
and their publication in the FAM.

J. William Fulbright Foreign Scholarship Board

        The 12-member J. William Fulbright Foreign Scholarship Board meets quarterly to
establish worldwide policies for the Fulbright program. Board members also review the
applications of finalists for Fulbright grants. Board members expressed concern that in the recent
past the number of board members had dropped, sometimes to as low as seven people. Vacancies
on the board mean that the workload must be shared among fewer members.

                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 8: The Bureau of Educational and Cultural Affairs should
       work with the Office of the Under Secretary for Management to establish procedures so
       that the Fulbright Scholarship Board maintains a full complement of members.

       Board members also said they are sometimes unaware of events involving Fulbright
program participants. Recently, board members received word of an event only 1 day before it
took place, even though ECA had been working on it for many months. Without sufficient
advance notice to rearrange their schedules, board members may miss valuable opportunities to
connect with Fulbright program participants.

       Informal Recommendation 9: The Bureau of Educational and Cultural Affairs should
       implement a policy to include Fulbright Foreign Scholarship Board members in event
       notifications to Fulbright program participants.

       A staff of six persons, led by an executive director and reporting to the Assistant
Secretary, supports the board. The executive director’s position is vacant and will remain so until
a Foreign Service officer arrives in summer 2012. Leaving the position vacant for so long is a
mistake, especially at a time when many important policy decisions may be ahead.

       Informal Recommendation 10: The Bureau of Educational and Cultural Affairs should
       work with the Office of the Under Secretary for Management to hire a temporary
       executive director to strengthen the work of the Fulbright Foreign Scholarship Board
       until the arrival of the permanent director in summer 2012.

Office of English Language Programs

        Enhancing American English language teaching and learning abroad is a strategic priority
and a vital public diplomacy tool. The English Language Programs office runs and oversees
programs, with a special focus on young people, particularly the underserved; produces language
support materials, both independently and in coordination with outside contractors; and employs
online and mobile technologies to increase its reach to teachers and students worldwide. As the
bureau’s focus on English language teaching has increased, so have the office’s budget ($44.6
million in FY 2011) and employees, half of whom have been in their jobs less than 18 months.

         During the inspection, office leadership and many staff members focused on salvaging
multiple projects that originated with senior leadership in the bureau or R. The OIG team found
no cleared initial concept paper specifying project goals or how success would be measured;
little or no needs assessment or cost-benefit analysis; either no implementation plan or one that
was poorly coordinated; and no feedback loop to test and refine the concept before signing an
agreement. Often, senior leaders did not examine lessons learned from pilot projects. As a result,
more than 1,000 hours of staff time and potentially upwards of $1 million were not well used.

Recommendation 16: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Under Secretary for Public Diplomacy and Public Affairs, should implement and
adhere to a systematic preacquisition planning process that is in accordance with guidelines from
the Bureau of Administration’s Office of the Procurement Executive. (Action: ECA, in
coordination with R/PPR)
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Among the five projects the OIG team reviewed, the most serious problem pertained to
materials for the office’s English Access Microscholarship Program. ECA’s then Assistant
Secretary wanted an interactive, multimedia educational game to supplement English language
classes for 32,000 nonelite teens in 90 countries. She gave the office such a tight deadline to
develop the scope of work that it could neither conduct a thorough needs assessment nor perform
in-depth market research, both of which are part of the office’s standard operating procedures.
The game prototype cost $1.1 million and did not meet expectations. Nonetheless, a $5.3 million
contract for game development was awarded before a working prototype was finished. The
English Language office is working intensively to support the contractor, but the project is now
more than 2 years behind the initial schedule.

Recommendation 17: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Administration, should determine whether the educational video game contractor for
the English Access Online program has met the terms of performance under the contracts and, if
not, pursue a remedy. (Action: ECA, in coordination with A)

        Much of the office’s production has moved online, substantially reducing the workload of
the individual responsible for procurement and making this position unnecessary. The office
needs a writer/editor with project management expertise to negotiate use rights with authors and
track copyrights on materials and pictures.

Recommendation 18: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Human Resources, should restructure the purchasing agent position, number
S9922600, to include other duties to make full use of the position and better meet the needs of
the English Language Programs office. (Action: ECA, in coordination with DGHR)

        ECA has more than 20 Foreign Service personnel and additional staff members serving in
the field as regional English language officers. Each has an advanced degree in teaching English
as a foreign language and extensive teacher training experience. To increase the impact of these
officers, the OIG team advised the office to develop standard work goals and performance
indicators that the language officers can refine in coordination with the public affairs officers at
their posts.

       Regional English language officers who responded to an OIG survey gave the office high
marks for its programs, but more than half rated their initial orientation and training as average
or below. The English Language office has been working with the Foreign Service Institute to
develop standard orientation training and a training continuum for future tours, efforts that the
OIG team believes are needed.

Recommendation 19: The Bureau of Educational and Cultural Affairs, in coordination with the
Foreign Service Institute, should finalize an orientation training program and a training
continuum for regional English language officers. (Action: ECA, in coordination with FSI)

       Regional officers gave high marks to the office’s online language materials and the
English Teaching Forum, a quarterly peer-reviewed journal for teachers of English as a foreign
or second language. Respondents gave lower scores to the print, video, and audio materials in
ECA’s publication catalog. The OIG team suggested ways the office might use its programs
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

more systematically to produce high-quality material for Forum and to make its online version
interactive. The office already has a grantee evaluating current materials and conducting a needs
assessment for future products.

Office of Global Educational Programs

         The Office of Global Educational Programs has three branches: Educational Information
and Resources, Humphrey Fellowships and Institutional Linkages, and Teacher Exchange. Its FY
2011 budget was $39.5 million. (The $12.5 million for Humphrey fellowships and $14.9 million
for teacher exchanges are included in the figure for the overall Fulbright programs provided
earlier.) The three branches work well, but their mandates are dissimilar, and the OIG team
questioned why they were grouped together in Global Educational Programs. There is little
communication among the branches, diminishing whatever opportunities exist for collaboration.
All-office meetings might help.

Educational Information and Resources

        This small branch oversees the bureau’s efforts to provide unbiased advice to foreigners
interested in study in the United States. Following a sharp decline in 2001, the number of foreign
students at U.S. colleges and universities has rebounded, bringing revenues and diversity to U.S.
campuses. More than 723,000 international students now study in the United States.

        The branch provides training and material to local educational advisors hired by
embassies and Fulbright commissions. The local advisors receive advice and assistance from a
network of regional educational advising coordinators who are paid through a grant overseen by
the branch. The branch’s previous director astutely redirected advising resources from “legacy”
operations to countries sending large numbers of students to the United States, such as China and
India. She also embarked on a project to make the regional coordinators direct-hire employees;
the OIG team believes the current system works well, is cost effective, and should continue.

       In an OIG survey sent to overseas missions, embassies complained that visits from
regional educational advising coordinators are too few and far between. Tight budgets mean that
more frequent travel is unlikely, so the branch needs to develop alternatives.

        Informal Recommendation 11: The Bureau of Educational and Cultural Affairs should
        increase interaction between regional educational advising coordinators and embassy- or
        commission-based advisers through more regional workshops and video conferences.

       The branch’s record keeping is inadequate, a deficiency that it has begun to address.
Completing this initiative will not require additional resources, only a commitment to keep
records in official files rather than in personal folders that are difficult for others to access.

Humphrey Fellowships and Institutional Linkages

       Two employees and the branch chief oversee the Humphrey Fellowship program, which
annually brings approximately 200 mid-career professionals from developing countries to the
United States for 10 months of study and professional experiences. Program employees work
                                           15
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

effectively with the embassies that nominate candidates, the expert panels that select the finalists,
and the universities that play host to the visiting scholars.

        Three other staff members work on the community college initiative program, designed
to increase the exposure of U.S. community colleges to the international arena and provide
students from underserved populations overseas the opportunity to study in 1-year, nondegree
programs at American community college campuses. Branch staff acknowledges that the
program works better in some countries than in others. Given the approximate $4,500 cost per
student, ECA needs to examine where the program works best and concentrate its resources in
those countries or in programs that promise a substantial payoff, like the pilot program that
brings foreign teachers and administrators to the United States to learn how to establish the U.S.
community college model overseas.

       Informal Recommendation 12: The Bureau of Educational and Cultural Affairs should
       review its community college initiative program and implement changes that would make
       the program more effective.

        The workload in the branch is distributed unevenly. The Humphrey program has spikes
of intense activity but operates on an even keel most of the year. One staff member in the
community college initiative program deals with the pilot program for administrators and
teachers and a consortium responsible for 200 foreign students; two colleagues handle consortia
that oversee only 70 and 40 students, respectively. The branch is cross-training staff in each
section to assist colleagues when necessary. Continuing this effort and redistributing workloads
provides a cost-effective alternative to replacing a recently departed staff member, which the
branch currently plans to do. The OIG team believes that position could be used elsewhere in the
bureau.

       Informal Recommendation 13: The Bureau of Educational and Cultural Affairs should
       reconsider plans to fill a vacant position in the Humphrey Fellowships and Institutional
       Linkages branch in the Office of Global Educational Programs and instead redistribute
       staff workloads, continue the branch’s cross-training efforts, and allow the vacant
       position to be used elsewhere in the bureau.

Teacher Exchanges Branch

         The Teacher Exchange Program provides opportunities for U.S. elementary and
secondary school teachers and for college and university faculty to teach abroad, usually for a
full academic year, and for foreign educators to work in the United States. Currently, there are
more than 250 American teachers abroad and more than 350 foreign teachers in the United States
in this program. The OIG team found that the branch suffers from the same problems of morale
as other parts of ECA; improved internal communication would help.

Office of Citizen Exchanges

        The Office of Citizen Exchanges, with an FY 2011 budget of $94.5 million, focuses its
programs on ECA priority groups: youth, women and girls, and underserved audiences. The
office concentrates on countries and regions that are of strategic importance and on maintaining
                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

strong relationships with the successor generation of key allies. The office’s four divisions cover
an array of two- and one-way exchanges, with programs for youth, sports, culture and arts, and
professionals. In FY 2010, nearly 6,650 participants (one-third American, two-thirds foreign)
traveled on Citizen Exchanges programs. In FY 2011, in addition to actual exchanges, another
5,585 students participated in “virtual exchanges” linking overseas and U.S schools online. In the
past 2 years, the office has undergone several leadership changes, enhanced oversight of youth
programs, and improved its organizational cohesion and strategic focus.

Youth Exchange Programs

        In 2009, because of a situation involving foreign high school students in ECA-sponsored
and private exchanges in Scranton, Pennsylvania, and a subsequent OIG review, the Department
determined that ECA youth programs were significantly deficient. New standards for monitoring
such programs, including on-site contact, were established and implemented for private
placement organizations and for ECA. The bureau also developed and implemented its own
internal plan for monitoring and supporting participants in youth programs. The more stringent
standards have resulted in improvements. The Department’s Management Control Steering
Committee closed the significant deficiency on the youth exchange program in November 2011.
ECA’s evaluation is ongoing.

         Enhanced monitoring of foreign students in the United States did not result in
comparably tight monitoring of American youth exchange participants overseas. Lack of
jurisdiction is one reason for the disparity; the cost of overseas travel for monitors is another.
Although U.S. embassies respond when there is a problem, they have no mandate to be proactive
or to conduct site visits that might forestall problems. Responsibility for participant well-being is
left to the student and to the on-site representative of the grantee placement organization. A
better approach is needed.

Recommendation 20: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Consular Affairs and the regional bureaus, should send a cable with appropriate
guidance to U.S. embassies in countries hosting American citizen youth on Department of State-
sponsored exchanges so that mission staff provides a uniform system and level of participant
support and monitoring. (Action: ECA, in coordination with CA, AF, EAP, EUR, NEA, SCA,
and WHA)

Capacity Crisis

        Participants in the youth program can only be placed in the United States when there is a
family to host them and a school that accepts their enrollment. There is a capacity crisis of host
families and host schools that is capping and reducing the numbers of participants in popular
ECA-sponsored youth exchanges. After nearly a decade of growth, the past 2 years have seen
declining participant numbers, from 2,398 inbound placements in the 2010–2011 academic year
to 1,899 in 2011–2012. The decline is counterintuitive, as interest remains high, especially in
programs aimed at increasing mutual understanding between the United States and countries
with significant Muslim majority populations. Factors accounting for the decline include tighter
regulations resulting from problems associated with students placed with inappropriate host
families; the inability of placement agencies to guarantee a sufficient number of suitable host
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

families; the expense of hosting an exchange student in the current economic environment;
significant competition from numerous private exchange programs and F-1 student visa holders;
and limits imposed by high schools on the number of exchange students they will accept. ECA is
exploring strategies to reverse this negative trend through marketing campaigns and other
initiatives.

Exchanges Not Funded by the Bureau of Educational and Cultural Affairs

        On occasion, a bureau or embassy approaches ECA to run an exchange program with
funding from sources outside ECA. U.S. embassies, with the support of their regional bureaus,
have developed their own programs to bring American cultural, sports, or other groups overseas.
In recent years, embassies also have used their own funds to send individuals or groups from
their host countries to the United States. In such cases, embassies have relied on staff in the
Office of Private Sector Designation to sign the Certificate of Eligibility for Exchange Visitor (J-
1) status (Form DS-2019), which exchange participants need to apply for a J-1 visa. Last year,
Designation office staff signed forms for some 900 exchange visitors. Allowing Designation
staff members to sign DS-2019s may create a false impression that they are responsible for the
visitors or the success of their programs. Such responsibility better resides in the public
diplomacy offices of the geographic bureaus that oversee the missions where the programs
originate.

Recommendation 21: The Bureau of Educational and Cultural Affairs should assign to relevant
regional bureaus the responsibility for signing DS-2019 forms for inbound exchange visitor
programs that are initiated and funded by overseas posts. (Action: ECA, in coordination with AF,
EAP, EUR, NEA, SCA, and WHA)

        Senior levels of ECA are often unaware of these exchanges, even though they may
mirror ECA programs or use the same programming agencies. This is especially the case with
Americans going overseas who need no sponsorships or U.S. visas. One reason for duplicative
programs is that ECA has limited funds and a limited number of exchange slots for an embassy,
but an embassy or host country government may want a larger program and be able to provide
the necessary funds. It is unclear how many embassies sponsor their own programs, how many
outbound participants are involved, what the overall cost is, or which appropriations are used. No
mechanism exists to inform Department managers of the scope of non-ECA exchanges.

Recommendation 22: The Under Secretary for Public Diplomacy and Public Affairs, in
coordination with the Bureau of Educational and Cultural Affairs and the regional bureaus,
should conduct a survey to determine the extent of bureau- and embassy-initiated exchange
programs that are not funded by the Bureau of Educational and Cultural Affairs and maintain
those results by designing and implementing a database into which bureaus and embassies can
enter information to be conveyed to resource managers and strategic planners. (Action: R/PPR,
in coordination with ECA, AF, EAP, EUR, NEA, SCA, and WHA)

       Because embassy and regional bureau coordination with ECA is not required for such
exchange programs, ECA takes no responsibility for them. However, some in ECA worry that
these mirror programs may not meet ECA standards. For example, participants may not have
accident or medical insurance or there may be a breakdown in internal controls due to inadequate
                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

government oversight. The application of uniform standards would reduce the risk both to
programs and participants. ECA cannot become a clearinghouse for all exchanges, but
developing a checklist and other guidance for bureaus or embassies running their own exchange
programs and putting this information on the ECA Web site would be useful, as would the
establishment of a help desk, serviced by a telephone number and email address, that could
provide additional information or direct inquirers to someone with expertise in the type of
exchange desired.

Recommendation 23: The Bureau of Educational and Cultural Affairs should implement an
online information resource that is easily accessible to embassies and regional bureaus, that will
provide comprehensive management and programmatic guidance for non-bureau-sponsored
exchanges, and that is supplemented by a help desk for direct inquiries. (Action: ECA)

Office of International Visitors

        The International Visitor Leadership Program is one of ECA’s flagship exchanges. It
brings to the United States for visits of up to 3 weeks people whom U.S. embassies identify as
potential leaders. The office’s employees ably design and organize visits, but their work is
hindered by uneven workloads, inefficient procedures, and imperfect mechanisms for evaluating
their own performance and that of grant recipients. In FY 2011, ECA funded 5,291 international
visitors at a cost of $91 million.

        ECA oversees the program through a large, unwieldy office of 95 full-time employees
supervised by a Schedule C director and a single Civil Service deputy. Staffing levels are
adequate, but workloads are uneven. The OIG team found significant disparities in the work
performed by different units. Some of this imbalance is due to a lack of flexibility. For example,
the office assigns most program coordinators to individual regional branches, although their
work is functional and interchangeable in nature. This practice makes it difficult to shift
coordinators in response to fluctuations in demand.

       Informal Recommendation 14: The Bureau of Educational and Cultural Affairs should
       revise work requirements of program coordinators in the Office of International Visitors
       to require their support for projects of highest priority to the office as a whole instead of
       only to those in regional branches.

        Despite the fears of some employees that it could compromise the program’s integrity,
the office has increasingly aligned its work to support foreign policy priorities. Policymakers
praise the shift, but the change has exacerbated workflow problems. A substantial increase in the
number of visitors from Afghanistan, Iraq, and Pakistan, for example, has not been accompanied
by changes in organizational structure. The office still devotes a separate branch to every region
of the world except the two that now represent its largest workload—South/Central Asia and the
Near East and North Africa.

Recommendation 24: The Bureau of Educational and Cultural Affairs should respond to
changes in the regional distribution of the workload in its Office of International Visitors by
creating separate branches for South/Central Asia and the Near East and North Africa and by
combining other branches with lesser workloads if necessary. (Action: ECA)
                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Morale in the office is mixed. Employees appreciate their telecommuting privileges but
feel the office director and the deputy do not provide sufficient supervision. The office needs
another senior manager to improve communication and increase consistency in practices and
standards. Rather than create an additional position, the OIG team identified an underutilized
position in the office’s New York branch that could be put to better use as a second deputy in
Washington. This FS-01 position has no supervisory responsibilities and is currently being used
for duties normally performed at the GS-13 level.

Recommendation 25: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Human Resources, should reprogram position number U0166200 from the New York
program branch as a second deputy director in the Office of International Visitors upon departure
of the incumbent. (Action: ECA, in coordination with DGHR)

        In part because it has too many employees to accommodate conveniently in a single
conference room, the office rarely holds staff meetings. This has hampered coordination and
communication. The unit most directly affected is the Voluntary Visitors division, which
arranges short programs for embassy contacts traveling to the United States at their own expense.
Because of space constraints, the unit is housed on a different floor than the rest of the office.
Physical isolation and poor communication create morale problems. These difficulties are
exacerbated by a lack of adequate supervision. For more than a year before the inspection, ECA
did not assign a full-time chief for this division.

         Employees in the Voluntary Visitors division perceive workload imbalances. Some of
this is due to a growing number of requests by senior officials in Washington to add last-minute,
ad hoc projects to those proposed by embassies. Much of the administrative program work for
such visits must be done in ECA because the agencies that would normally be contracted to do it
are not sufficiently fast or flexible. At the same time, Voluntary Visitors employees who arrange
such programs rarely coordinate with their regional counterparts elsewhere in the Office of
International Visitors, creating a risk of duplicated efforts. The OIG team questioned whether it
is necessary for the office to maintain a separate Voluntary Visitors division or whether it might
be better to integrate it with the branches based on regions.

Recommendation 26: The Bureau of Educational and Cultural Affairs should include in its
strategic planning efforts a review of the need for a separate Voluntary Visitors division in the
Office of International Visitors. (Action: ECA)

        The inspection found two key obstacles to more efficient performance. First, many
employees cannot respond effectively to tasking orders from the Assistant Secretary level
because the orders are not sufficiently clear. See the Executive Direction section for the OIG
team’s proposed solution to this problem. Second, most employees did not receive a structured
introduction by the office to their duties, including written guidelines on the details of how the
International Visitor Leadership Program operates.

       Informal Recommendation 15: The Bureau of Educational and Cultural Affairs should
       assign an employee in the Office of International Visitors to develop and maintain a
       “smart book” with documents employees need to carry out their duties, including files,

                                          20
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       instructions, formats, and other necessary information, and distribute it to all new
       employees on arrival.

       Program evaluation is weak. The office monitors and evaluates its own performance and
that of the agencies that carry out the bulk of its program work through grants. Shortly before
the inspection, the office named more grants officer representatives and made sure they were
trained. It also began a project to revise and standardize the checklists used to conduct
evaluations. The office does not need additional contract studies, only a simple but effective
method to evaluate which visits were successful, how well program agencies performed, and
whether any weaknesses could be identified.

       Informal Recommendation 16: The Bureau of Educational and Cultural Affairs should
       complete its current, in-house project to revise, improve, and standardize procedures for
       evaluating International Visitor projects and the performance of program agencies.

        In addition to its Washington components, the office includes a branch of 13 government
employees in New York who manage programs for the large percentage of international visitors
who arrive there. This arrangement is more cost effective than using independent program
agencies in New York. By working closely with authorities at New York’s busy airports, for
example, these employees have reduced the problems posed for official visitors from the Middle
East due to increased immigration and security scrutiny. Because of the seasonal nature of its
work, the branch makes heavy use of long-term contractors. In 2011 the bureau reduced
expenditures in this area without degrading productivity by limiting such contractors to 189 days
a year. It also reduced the cost of several services by sharing them with the U.S. Mission to the
United Nations, an arrangement that has been effective in all areas except information
management. At present, the New York branch supports only the International Visitor and
Leadership Program. Without creating additional positions, ECA could make more use of this
resource to represent the entire bureau.

Recommendation 27: The Bureau of Educational and Cultural Affairs should carry out a pilot
program to determine whether the New York program branch of the Office of International
Visitors could effectively support other bureau offices and programs. (Action: ECA)

        ECA spent $14.8 million in FY 2011 on interpreters and other escorts who were
contracted by the Bureau of Administration’s Office of Language Services. The bureau last
issued guidelines for the conduct of interpreters and other escorts in 2004. It is updating the
guidelines now after finding isolated instances of poor performance. Even with the new
guidelines, ECA lacks an adequate way to provide formal feedback to the Office of Language
Services on interpreters and other escorts. The Office of Language Services is responsible for
paying escorts and interpreters, but ECA is responsible for defining their work duties. The OIG
team found only informal anecdotal feedback on their performance.

Recommendation 28: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Administration, should implement a method for providing the Office of Language
Services with official feedback on the performance of interpreters and others who escort
international visitors. (Action: ECA, in coordination with A)

                                         21
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Office of Private Sector Exchange

        The Office of Private Sector Exchange (EC) is involved in a variety of activities, some of
which have little to do with private sector exchanges. For example, two of its three subentities
handle the designation and compliance functions for the more than 1,200 program sponsors
currently authorized to facilitate programs in any of the 15 J visa categories. Some of these
categories involve only government-funded (public sector) participants, some only privately
funded participants, and others a combination of both.

        The designations staff reviews applications from governmental, nonprofit, and for-profit
organizations wishing to obtain authorization to issue a Form DS-2019. Organizations pay a fee
of approximately $2,700 per program designation applied for, and designations must be renewed
every 2 years. Many sponsors are designated for multiple J visa categories. Designations staff
also receives and reviews complaints about sponsor performance. Compliance staff reviews the
designation staff’s referrals of possible regulatory violations and, if appropriate, drafts sanction
notices for approval by the EC DAS. Designations and compliance staff also oversee sponsors’
performance in updating exchange visitors’ records in the Department of Homeland Security’s
Student and Exchange Visitor Information System (SEVIS). A third EC unit handles public-
private partnership outreach; serves as the secretariat for the more than 60 Federal departments,
agencies, and commissions represented on the IAWG; and reviews Section 212(e) (Immigration
and Nationality Act) requests from ECA-funded exchange visitors seeking waivers of the 2-year
home residency requirement.

        EC staff comprises 33 direct hires and 7 contractors. Fees generated through the sponsor
designation and biennial redesignation processes, participant payments for program adjustments,
and participant SEVIS fees currently fund all designations and compliance positions. Several EC
staff members believe that their jobs ultimately depend on the level of revenues generated by
these processes. This arrangement creates a potential conflict of interest. The primary concern of
EC staff should be the rigorous oversight of the selection and performance of sponsors to ensure
that the cultural exchange experiences of participants are positive. The Department’s reputation
can be placed at risk when staff focuses on the quantity of fee-paying participants and sponsors
rather than on the quality of the visitors’ experiences. If these programs are worth continuing,
they warrant ECA’s investment of some of its appropriated funding in staffing them.

Recommendation 29: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, the Bureau of Resource Management, and the Bureau of Legislative
Affairs, should revise its funding distribution so that designations and compliance staff salaries
do not derive exclusively from fees the bureau receives from the sponsor designation and
Department of Homeland Security’s Student and Exchange Visitor Information System
registration processes. (Action: ECA, in coordination with L, RM, and H)

Consequences of Unregulated Growth in Private Sector Programs

       Between 1990 and 2010, J visa issuance nearly doubled from 175,000 to more than
300,000. Much of the growth has been in privately funded programs. The SWT program alone
grew from fewer than 20,000 participants in 1990 to 153,000 in 2008 and involved some 120,000
in 2010. ECA now struggles to provide much-needed oversight to the more than 1,200 sponsor
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

organizations charged with ensuring successful cultural exchange experiences for all exchange
program participants—be they ECA funded or privately funded.

        In addition to sponsor designations and compliance activity for all J visa programs, EC is
responsible for managing the eight programs that receive no appropriated funds: alien physician,
au pair, camp counselor, intern, secondary school student, SWT, teacher, and trainee. In recent
years, significant issues have arisen regarding the au pair, secondary school student, and SWT
programs. Several observers commented that other programs have serious unaddressed issues
about which the public is currently unaware.

        These programs have attracted hundreds of sponsors. Once designated, a sponsor can
issue as many DS-2019 forms as EC has authorized for its organization that year. In addition, the
sponsor and its overseas representative can charge participants whatever fees it deems
appropriate, as ECA has set no limits on these fees but allows “the market” to set them.

        In recent years, negative press reports have prompted ECA to systematically review the
performance of designated sponsors in various programs to whom thousands of exchange visitors
are entrusted each year. Many visitors are young persons of secondary school or college age,
whose safety and well-being are of paramount importance, making it imperative that ECA hold
sponsors to the highest standards. Except for a recent change in the SWT program, ECA has not
limited the number of sponsors or participants in each program under its purview nor instituted
systematic on-site reviews of sponsor performance, despite a specific recommendation made to
this effect in a 2007 study, “Exchange Visitor Program Internal Controls Assessment,” which
ECA itself commissioned.

Recommendation 30: The Bureau of Educational and Cultural Affairs should establish the
maximum number of sponsor organizations and participants for each J visa program that its
current resources and capacity can manage with appropriate quality controls. (Action: ECA)

Recommendation 31: The Bureau of Educational and Cultural Affairs should revise regulations
governing all J visa programs to establish the maximum fees sponsors and their overseas
representatives may charge participants. (Action: ECA)

Recommendation 32: The Bureau of Educational and Cultural Affairs should implement a plan
to conduct on-site reviews of every sponsoring organization at least once every 2 years as part of
the redesignation process, increasing designation fees as necessary to defray travel and per diem
costs. (Action: ECA)

Weak Regulations Undermine Oversight

        Weak regulations make responsible management of ECA’s numerous programs difficult.
Even limited sanctioning of inadequate sponsor performance requires a time-consuming,
multistep exercise that rarely results in meaningful consequences for a delinquent sponsor. When
EC staff members have recommended higher level sanctions, they have often been overruled.
Since 2006, ECA has imposed a total of 21 sanctions that led to termination or a reduction in the
number of authorized DS-2019 forms for reasons other than insufficient program activity (5
participants per year). Some organizations that placed secondary school students in homes with
                                         23
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

convicted felons continued for extended periods to operate as designated sponsors. Current
multilayered regulatory requirements render swift and meaningful sanctions impossible: more
than a year elapsed between ECA’s discovery that one sponsor had for years been placing high
school students with a convicted murderer and ECA’s termination of the sponsor’s designation.

Recommendation 33: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should provide streamlined and more stringent sanctions for
noncompliance with any regulatory requirement. (Action: ECA, in coordination with L)

       ECA does not require designated sponsors to sign agreements that explicitly enumerate
what they are required to and prohibited from doing. Requiring responsible officers at sponsor
organizations to sign such a document would make it easier to sanction and terminate
noncompliant program sponsors.

Recommendation 34: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should implement and enforce written agreements in which
sponsors’ responsible officers and alternate responsible officers commit to deliver required
services, follow program regulations and Department of State guidance, and refrain from
prohibited practices. (Action: ECA, in coordination with L)

        When ECA’s management of the au pair program faltered several years ago, ECA
established an annual program audit requirement for sponsors. The 2007 external study cited
previously recommended that audits be required for sponsors in all programs, which the OIG
team agrees are necessary. However, ECA has yet to require such audits in any other program.
The Office of Management and Budget’s Revised Circular A-123 calls for, among other things,
effectiveness and efficiency of operations and compliance with applicable laws and regulations.
Requiring program audits is a standard method for government managers to obtain useful
insights into these important areas. In light of the limited staff resources to oversee the hundreds
of program sponsors ECA has designated in its myriad programs, the absence of annual program
audits renders ongoing, systematic oversight of sponsor compliance virtually impossible.

Recommendation 35: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should implement an annual program audit requirement for
designated sponsors in every J visa program. (Action: ECA, in coordination with L)

Review of Use of J Visas for Work Programs

        In the midst of unfettered program growth, ECA lost sight of the original intent of some J
visa programs. Seven of eight private sector exchange categories involve aliens coming to the
United States to work for periods from 4 months to 7 years. Some designated sponsors are for-
profit entities employing J visa holders in their own businesses. The OIG team questions the
appropriateness of using J visas in work programs such as alien physician, teacher, au pair,
intern, and trainee.

        Unlike H1B/H2B nonimmigrant and employment-based immigrant visa programs, J visa
programs do not require a Department of Labor analysis of American labor market conditions. J
visas are also not subject to the statutory numerical limitations that apply to H visas. Moreover,
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

American businesses employing J visa holders need not advertise jobs to American workers.
Department of Labor officials report increasing evidence of H1B/H2B and J visa holders
working side by side in the same jobs.

        In addition, the length of stay authorized for alien physicians (as long as 7 years) and
teachers (as long as 3 years), and the practice of many such participants to adjust to H1B or other
visa categories when their time under the J visa is expiring, call into question the likelihood that
program participants will return home as envisioned under the Fulbright-Hays Act. Although it is
difficult to capture precisely, available statistics indicate that, on average, about 40 percent of
alien physician participants who enter the United States each year later transfer to an H1B visa.

       Critics of J visa programs claim that the lack of any labor market analysis and a
concomitant adjustment of these programs’ scale and scope negatively affect American workers.
They believe that J visa categories such as intern and trainee are little more than expeditious
vehicles for importing low- or no-cost labor into the United States. The OIG team questions the
appropriateness of allowing what are essentially work programs to masquerade as cultural
exchange activities. If categories of the J visa program are not primarily cultural exchange
programs, they should have a different visa designation and either be transferred to another
Federal agency that has the requisite expertise or be discontinued altogether.

Recommendation 36: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Consular Affairs, the Office of the Legal Adviser, and the Bureau of Legislative
Affairs, should submit a proposal to the Deputy Secretary for Resources and Management to
determine the viability of ending or transferring its current responsibilities for the alien
physician, au pair, intern, teacher, and trainee programs to the Department of Labor. (Action:
ECA, in coordination with CA, L, and H)

        Section 212(e) of the Immigration and Nationality Act allows waivers of the legislatively
mandated 2-year home residency requirement for certain J visa recipients, but the Department’s
approach has been to support them on a wholesale basis—except when the waiver applicant is a
recipient of ECA exchange program funding. The OIG team believes this practice is inconsistent
with the spirit of the Fulbright-Hays Act.

        In FY 2011, the Department of Homeland Security, which is guided by the Department’s
advice, denied only 228 (less than 4 percent) of the 5,800 212(e) waiver requests it adjudicated.
One common pattern is for teachers or alien physicians nearing completion of their J visa
program to obtain a 212(e) waiver and then acquire an H1B visa that is usually valid for two
successive 3-year periods. This allows an alien physician a total of 13 years living and working
in the United States in nonimmigrant status, and a teacher up to 9 years. These extended periods
of employment in the United States appear to be inconsistent with the common understanding of
cultural exchange activities.

Recommendation 37: The Bureau of Consular Affairs, in coordination with the Bureau of
Educational and Cultural Affairs, should prepare a report reflecting how its recommendations to
the Department of Homeland Security concerning Section 212(e) waiver requests properly
balance the intent of the Fulbright-Hays Act with other relevant policy considerations. (Action:
CA, in coordination with ECA)
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Secondary School Students

        In 2009, a scandal involving the placement of secondary school students in Scranton,
Pennsylvania, called into question the adequacy of ECA oversight of the 92 sponsors dealing
with this vulnerable population. In 2010, for the first time, ECA embarked on systematic on-site
reviews of the largest program sponsors responsible for the well-being of thousands of teenagers
placed with host families nationwide. ECA sent teams comprising members of its Compliance,
Youth Programs, and Grants staff to review the operations of the 39 largest sponsors, collectively
responsible for 72 percent of secondary school student participants.

        The on-site review teams found that many sponsors inadequately maintained SEVIS
records, thereby thwarting the Department of Homeland Security’s efforts to fulfill its national
security mandate of tracking the whereabouts of all J visa holders in the United States. Sponsors
had not always completed the required annual criminal background checks on host families,
resulting in teens being placed in homes with sex offenders and other felons. Given the
challenges of the economy, sponsors were finding it difficult to attract host families. Rather than
limit the number of students brought to the United States, some sponsors lowered standards.
Students reported host family requests that they provide day care, do housework, perform farm
labor, or work in host family-owned businesses. Some students had insufficient food and lived in
squalor. From January 2010 through October 2011, ECA received allegations related to sexual
abuse or sexual harassment of 118 participants in the secondary school student program.

Recommendation 38: The Bureau of Educational and Cultural Affairs should establish a
process to refer credible allegations of criminal activity to the Bureau of Diplomatic Security, the
Office of Inspector General’s Office of Investigations, or to an appropriate law enforcement
organization. (Action: ECA)

        Although in early 2009 EC established a Joint Review Committee involving three senior
EC managers to consider sanctions against program sponsors, when the high school review
results came in, EC decided to convene an “ad hoc evaluation review committee” to provide an
independent review of the results and recommend appropriate remedial action where needed. It is
unclear why the established review body, which included staff familiar with both the regulatory
requirements and day-to-day operations of the program, was bypassed. The OIG team was told
that EC thought this ad hoc group “could better withstand external scrutiny.”

        These first-ever systematic on-site reviews also found that 15 of the 39 sponsors did not
comply with regulations. Section 502(a) of the Enhanced Border Security and Visa Entry Reform
Act of 2002 states that material failure to comply with record keeping and reporting requirements
shall “result in the suspension for at least one year or termination…at the election of the
Secretary of State, of the…entity’s designation to sponsor exchange visitor program
participants.” Despite this, the ad hoc evaluation review committee gave only the minimal
sanction, a letter of reprimand, to 11 sponsors; there was no reduction in their level of authorized
activity. ECA reduced the DS-2019 allocations for 2 sponsors by a collective total of 310 forms
and terminated from the secondary school student program 2 organizations with a combined
allocation of 277 DS-2019 forms. (The terminated sponsors had placed students in the home of
the same convicted murderer.) These actions had the effect of reducing the secondary school
student program by only 2 percent. In spite of the limited impact of the on-site reviews, the OIG
                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

team noted that ECA/EC front office staff exaggerated the results in communications with senior
Department officials, overstating the extent of both the program sanctions and ECA’s
compliance activity.

        The acting DAS recognizes that the creation of a system for ECA to check prospective
host family names against a database of past incidents and complaints will better ensure that
secondary school students are not placed with families unfit to host students. He convened
discussions with his staff, the Youth Programs division in ECA’s Office of Citizen Exchanges,
and the Office of the Legal Adviser. They agreed to implement a pilot program to cross-check
the names of host families of all ECA-funded secondary school exchanges and aim to cross-
check all host families in the future. ECA might also consider cross-checking sponsors and their
local representatives.

        The secondary school student program regulations require annual criminal background
checks on all adult members of a host family. The regulations do not dictate, however, the type
of criminal background check, and sponsors generally use private databases to fulfill the
requirement. Because a number of states do not allow criminal information to be stored in these
private databases, significant risk remains that students may be placed in homes with criminals.
EC and the Office of the Legal Adviser are considering the role that law enforcement agencies
may play with regard to checking host family names and criminal history as well as other
mechanisms for improved screening of host families.

Recommendation 39: The Office of the Legal Adviser, in coordination with the Bureau of
Educational and Cultural Affairs and the Bureau of Diplomatic Security, should determine
whether host family names can be checked against law enforcement databases and, if so, develop
a procedure for such checks. (Action: L, in coordination with ECA and DS)

Summer Work Travel Program

        Of the 180,000 participants in 8 private sector exchange programs in 2010, 120,000 came
to the United States under the SWT program. Until recent events forced the issue, ECA never
sought to limit the growth of this program. Established in the early 1960s, SWT was intended as
an opportunity to allow foreign university students with limited means to travel to the United
States during their summer vacations and work in seasonal jobs. Many SWT participants were
and still are found at beach or other summer resorts across the country and report satisfaction
with their experiences. For most, their initial contact is with an overseas agent of an SWT
sponsor. ECA has no input into the fees that sponsors or their overseas agents charge prospective
participants. Given the different academic calendars in the southern hemisphere and in East
Asian countries, SWT is now available year round to students from various parts of the world.
Despite the intent that SWT participants fill only seasonal jobs, sponsors have expanded the
program to include a wide variety of year-round employment in many unskilled jobs.

        Within the past few years, growing law enforcement concerns about the types and
location of some SWT employment and related activities exposed serious deficiencies in the
quality of job “vetting” undertaken by designated sponsors. Although not responsible for SWT
program management, the Bureau of Consular Affairs’ Kentucky Consular Center staff and
consular officers at embassies overseas have contributed substantially to efforts to screen out
                                         27
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

inappropriate or fraudulent jobs and employers. Concerns about fraud and criminal activities
were most prevalent with SWT participants from Eastern Europe. At the urging of consular
officers and the law enforcement community, ECA developed and implemented a six-country
pilot program for participants from Russia, Ukraine, Belarus, Bulgaria, Romania, and Moldova
that established more rigorous requirements for sponsors, including confirming job placements
before participants arrived in the United States.

         Job preplacement and other requirements were extended to SWT participants from any
country whose nationals require visas to enter the United States. In addition, through an interim
final rule, on July 15, 2011, ECA mandated more active sponsor involvement with SWT
participants, including more extensive orientation materials, more rigorous job vetting, and
monthly check-ins. In spite of these efforts to gain control over the SWT program, in summer
2011, a visiting human rights delegation of academics and immigration law experts reported that
some 200 of the 400 SWT participants sponsored by an organization based in Oregon walked off
their jobs at a Hershey plant in Pennsylvania, claiming they had paid as much as $6,000 for what
was to have been a cultural exchange experience. Although not all SWT participants went on
strike, those who did alleged abusive labor conditions, exorbitant rents for substandard
employer-arranged housing, and no cultural exchange activities. The participants claimed that
when they complained, their sponsor organization threatened them with deportation. The
Department of Labor is currently investigating these allegations.

        In October, the Secretary of State ordered a thorough review to determine how to return
the SWT program to its original intent, with cultural exchange at its core, and to develop
significant adjustments in SWT’s design and governing regulations. ECA plans to limit the
categories and conditions of participant work allowed under the program as well as the fees that
sponsors and their overseas representatives may charge prospective participants; it has also
vowed to increase the cultural component of the SWT program. To improve sponsor oversight of
participants and employers, consideration could also be given to limiting the geographic area in
which sponsors may place participants. ECA has frozen at 2011 levels the number of SWT
sponsors and participants in 2012 (50 and 109,000, respectively). The Department’s
Management Control Steering Committee voted in November 2011 to include the SWT program
as a “material weakness” requiring the Department’s ongoing attention in 2012.

         The acting DAS for Private Sector Exchange has moved away from the insularity that
characterized SWT and other EC programs and has brought concerned players from both inside
and outside the Department into the process. The OIG team is hopeful that these efforts will
result in a substantially higher performance standard by the beginning of 2012. ECA also has
undertaken a series of on-site reviews at 14 of the current 50 SWT sponsor organizations. OIG
inspectors are also hopeful that ECA will achieve better results here than with the secondary
school student on-site reviews. ECA will use the judgments from these reviews to determine
which organizations should no longer be allowed to sponsor SWT participants and which require
sanctions for regulatory noncompliance.

Recommendation 40: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should significantly limit the number of sponsors and participants in
the Summer Work Travel program pending implementation of major regulatory change that will

                                         28
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

allow more rigorous oversight of the designation, management, and sanctioning of program
sponsors. (Action: ECA, in coordination with L)

Benefits of Systematic Information Sharing

         Many of ECA’s designated sponsors participate in multiple privately funded programs.
Some also receive grants from ECA or other U.S. Government entities for a variety of exchange
activities. Yet ECA has no mechanism for systematically gathering relevant information from
government actors concerning the performance of these sponsors. A U.S. Agency for
International Development audit of one SWT sponsor revealed disallowed and questioned
charges of approximately $250,000. During the 4 years since this finding, the sponsor continued
to operate in the SWT program because ECA was unaware of the agency’s audit findings. When
ECA sanctions a sponsor for regulatory noncompliance in one program, there is no automatic
review of the sponsor’s performance in other programs.

Recommendation 41: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Resource Management, should implement a procedure for gathering relevant
information on its designated sponsors from other Department of State and U.S. Government
entities. (Action: ECA, in coordination with RM)

Recommendation 42: The Bureau of Educational and Cultural Affairs should implement a
procedure under which a sanction in any program triggers an on-site review of all other programs
under that designated sponsor’s purview. (Action: ECA)

Internal Communications and Procedures

        Despite the findings of the previously cited 2007 study, which found internal
communications lacking, EC staff continues to receive limited information about discussions
taking place at senior levels concerning their programs. Likewise, ECA senior staff and even
seventh floor principals may receive inaccurate or misleading information, as those with day-to-
day knowledge of the programs are excluded from communications. Although there is some
communication among the three EC units, most is on an informal basis. This insular approach to
staff and program management adds to an aura of organizational dysfunction.

         Written procedures for internal clearance processes for memoranda, correspondence,
compliance, designations, Freedom of Information Act requests, etc., are available to and
followed by EC staff. However, the OIG team was unable to find documentation in ECA files
that reflected policy-level approval of various EC-initiated pilot projects. A July 2008 ECA
policy statement distributed to all program sponsors prohibited sponsor payments to the host
families of secondary school student participants. However, EC subsequently authorized one
sponsor to continue making such payments. The OIG team could not determine what process EC
used in granting this exception.

         The number of DS-2019 forms ECA authorizes a sponsor is important to the sponsor’s
institutional livelihood. Sound management controls require that EC staff have clear written
guidance on how to address requests for allocation adjustments. No such guidance exists. In
practice, program staff considers requests on a case-by-case basis, makes determinations as to
                                         29
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

their merit, and prepares recommendations for the DAS’s approval. In reviewing the allotment
histories of various sponsors, the OIG team noted that, on occasion, program officers had
annotated the record with “per XX,” followed by a description of what adjustments they had
made to the sponsor’s allotment level. Such notations normally pertained to sponsor requests for
senior-level ECA intervention during the process. In the absence of established guidance on
allocation adjustment procedures, this practice renders ECA vulnerable to charges of favoritism.

Recommendation 43: The Bureau of Educational and Cultural Affairs should implement clear
written procedures and standards for reviewing sponsor requests to adjust DS-2019 allotments.
(Action: ECA)

Organization and Program Management

         In addition to its overly large programs, numerous sponsors, and weak regulations, EC’s
staff organization contributes to its overall dysfunction. The normal process is for designations
staff to authorize sponsor participation in various programs through what is primarily a paper
review process. Unless an issue arises that the compliance staff must examine, the sponsors are
left to conduct business on their own until the next redesignation application 2 years later.

       Under this reactive arrangement, no one in ECA is managing the sponsors and programs
on a day-to-day basis, which is the root of many of EC’s recent problems. The aforementioned
2007 external review also noted this issue and recommended a more holistic approach to
program oversight and evaluation.

         Designations and compliance staff members do not have a common understanding of the
complex legal and regulatory issues that are central to their responsibilities, resulting in
conflicting guidance of, and confusion among, sponsors regarding interpretation of regulations.
Although EC is responsible for oversight of sponsor performance, few EC staff members had
visited sponsors’ headquarters until issues arose with the secondary school student and SWT
programs, prompting hastily scheduled on-site reviews of some sponsors. A few months prior to
the inspection, designations staff visited some 22 college and university J visa sponsors for the
first time. No reports of these visits are available, so it is impossible to judge the impact of this
travel. Furthermore, new staff members receive little structured training on the complex legal
and regulatory issues that are central to their responsibilities.

Recommendation 44: The Bureau of Educational and Cultural Affairs should implement a
substantive training program on laws and regulations for all staff charged with communicating
with sponsors or monitoring sponsor compliance. (Action: ECA)

        The current functional organization of EC staff is inadequate to the efficient and effective
management of EC programs. A reorganization of staff into programmatic teams responsible for
the designation, program management, and compliance functions of each category of J visa
would concentrate all available bureau expertise on the management of a single program and its
designated sponsors and would minimize the effect of conflicting guidance from designations
and compliance staff. ECA could combine the camp counselor program with SWT. Furthermore,
if they are determined worthy of continuation as J visa programs, the alien physician, au pair,
intern, and trainee programs could be handled by one team or divided between two.
                                                30
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 45: The Bureau of Educational and Cultural Affairs should restructure the
Office of Private Sector Exchange, combining the staff responsible for sponsor designation,
program management, and compliance activities for each J visa category into a single unit.
(Action: ECA)

        Some EC programs duplicate others in ECA, resulting in wasted resources and confusion
regarding roles and responsibilities. This issue is particularly problematic for the J visa
secondary school student and teacher programs. Once the ongoing SWT review is complete, the
OIG team advises ECA to reexamine its overall organization to determine the most effective
structure for managing programs—be they ECA funded or privately funded.

        The OIG team could find no rationale for the placement in EC of the IAWG, which is
responsible for analyzing and reporting exchange data from all U.S. Government departments
and agencies, promoting cooperation across the U.S. Government, and identifying programmatic
duplication. According to the U.S. Code, 1 the IAWG staff should be in ECA. However, the OIG
team believes the staff’s placement there hampers it from conducting its legal responsibilities.
The IAWG would be better placed in ECA’s Office of Policy and Evaluation, which has a
broader view of all ECA exchange activities and a mandate by ECA leadership to coordinate
exchange activities across the bureau. The office also has clearer authority to send data calls to
other agencies, a vital part of the IAWG process.

Recommendation 46: The Bureau of Educational and Cultural Affairs should move staff of the
Interagency Working Group on U.S. Government-Sponsored International Exchanges and
Training to the Office of Policy and Evaluation within the Bureau of Educational and Cultural
Affairs. (Action: ECA)

         Unless granted a 212(e) waiver request, certain J visa exchange visitors must return home
to fulfill a 2-year physical presence requirement. Because EC comments only on the 212(e)
waiver requests from ECA-funded participants (the Bureau of Consular Affairs handles those
without ECA funding), EC is not best placed to perform this function.

Recommendation 47: The Bureau of Educational and Cultural Affairs should transfer its
responsibility for 212(e) waiver requests from the Office of Private Sector Exchange to the
Office of Policy and Evaluation. (Action: ECA)

        Public-private partnerships occur in all ECA programs; however, EC’s Outreach office,
which is responsible for this work and related long-term strategic planning and training, is a
subordinate office in EC. Outreach office staff is frequently unaware of what developments are
occurring in ECA and would thus be better placed in the Office of Policy and Evaluation, which
has a broader mandate and access to all ECA programs.

Recommendation 48: The Bureau of Educational and Cultural Affairs should transfer public-
private partnership initiatives to the Office of Policy and Evaluation. (Action: ECA)



1
    22 U.S.C. 2460.
                                         31
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Grants Management
        The Program Management and Grants divisions in ECA’s executive office (EX) are
efficient and provide timely support for the selection and award processes required for grants and
cooperative agreements. The OIG team identified a number of opportunities for the bureau to
build on improvements it has already made. The lack of standardized procedures for individual
grants is a significant problem.

Individual Grants

        ECA provides almost no oversight of the individual grants awarded by EX. These grants,
awarded to individuals participating in one-time events or programs, are primarily for travel but
can also fund webinars, training, and other programs. ECA awarded 454 individual grants in FY
2011, obligating a total of $2,119,729. The OIG team identified several problems with the
individual grants, including misuse of appropriated funds by providing grant-funded travel to a
U.S. Government employee; incomplete grant awards forms; failure to create and maintain
required DS-4012 foreign assistance files; failure to designate grants officer representatives; use
of the wrong budget object code for direct travel grants; and failure to close out awards and
reconcile expenses. Individual grants for travel and other purposes are subject to the same
requirements as other government grants. The Department’s grants policy office offers specific
guidance on managing travel grants. The Support Services office manages the individual grants
program, but the extent of the problems the OIG team identified and the lack of accountability
for the files demonstrate that individual grants would be managed better elsewhere, specifically
the Grants division, where grants officers have the needed experience and training.

Recommendation 49: The Bureau of Educational and Cultural Affairs should move the
management of individual grants into the Grants division of the executive office. (Action: ECA)

        There is no bureauwide guidance on awarding individual grants. Most award files are
incomplete, including only the estimated cost of travel instead of the actual cost, or fail to
provide a detailed budget and description of the purpose of the award. Some offices also fund
travel for government employees through the same grants process as their other programs,
resulting in the misuse of appropriated funds.

Recommendation 50: The Bureau of Educational and Cultural Affairs should implement
standard procedures for awarding individual grants. (Action: ECA)

Institutional Grants

         ECA awards most of its funding through institutional grants and cooperative agreements,
by which ECA selects sponsor organizations to develop and implement educational and cultural
exchange programs. The Program Management and Grants divisions awarded or renewed 198
institutional grants for FY 2011, obligating $464 million, despite the limitations of continuing
resolutions, uncertain budget expectations, and 6 vacant grants officer positions at the beginning
of the year. The Grants division also piloted a number of new procedures and programs that will
enhance the bureau’s ability to monitor grants adequately, including a new risk assessment tool,

                                          32
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

pre-award site visits, and post-award conferences. The Grants division expects to hire enough
staff to continue improving its processes, which will include developing a comprehensive annual
desk audit for grants officers to conduct with grantees and establishing a 3-year cycle of site
visits for the 30 organizations with the most grant funding.

       ECA has a number of barriers to competition for grants. The Department encourages
competition in awarding grants and cooperative agreements to promote fairness, transparency,
and equity in selecting and awarding Federal assistance and to reach a broad pool of qualified
applicants. Nonetheless, over the past 5 years, ECA awarded 79 percent of the institutional grant
funding managed by the Grants division to just 10 of the 229 recipient organizations, indicating a
heavy reliance on familiar organizations.

        One barrier to expanding the pool of potential grantees is the limitation to $60,000 of
grant funding for organizations with less than 4 years’ experience in conducting international
exchange programs. The U.S. Information Agency established this limitation in 1983, and ECA
has not adjusted it since. Adjusted for inflation, that limit would now be $130,000. Over the past
5 years, there was an average of only 3 grants awarded within the $60,000 limit; by comparison,
an average of 10 grants were awarded within the inflation-adjusted amount of $130,000. ECA is
working with the Office of Congressional Affairs to determine the best way to increase this
limitation, which severely restricts the ability of newer organizations to compete for grants.

Recommendation 51: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Legislative Affairs, should increase the limitation on the grants budget for
organizations with less than 4 years’ experience from $60,000 to at least $130,000. (Action:
ECA, in coordination with H)

        ECA awarded at least 23 percent of new institutional grants in FY 2011 with sole-source
solicitations or limited competitions, based on the 4 exceptions to competition defined by the
U.S. Code. 2 The bureau relies heavily on the third and fourth exceptions to competition; that is,
when an organization has particular expertise in planning and administering long-standing
exchange programs, or when introducing competition would increase costs. ECA provides no
guidance on criteria or standards for using these exceptions. Consequently, program officers are
inconsistent in the strength and detail they include in the documented justifications for
exceptions, which could result in uneven application of exemptions.

        Informal Recommendation 17: The Bureau of Educational and Cultural Affairs should
        draft and disseminate guidance with clear criteria for justification of the third and fourth
        exceptions to competition.

       The Grants division began using the Executive Office Suite software in FY 2007 and, in
some cases, has used the software as a replacement for paper files. However, the software does
not duplicate all of the paper files, and the division does not require the continued use of the DS-
4012 Foreign Assistance File 3 after the initial award. The OIG team found that most of the

2
 22 U.S.C. 1475 h.
3
 The DS-4012 Foreign Assistance File is essentially a checklist of documentation that should be present for each
Federal assistance award.
                                               33
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

inspected grants files were missing financial and program performance reports, payment
information, grants officer representative designation memos, and other required documents. The
Department’s Grants Policy Directive 38 requires that grants officers maintain paper backup files
until there is an approved governmentwide electronic grants system.

Recommendation 52: The Bureau of Educational and Cultural Affairs should implement
procedures that require grants officers to use the DS-4012 Foreign Assistance File form and
maintain complete paper files. (Action: ECA)

Monitoring and Evaluation

        The most significant weaknesses in ECA’s grants management process are in monitoring
and evaluation. In particular, ECA’s grants officer representatives do not perform their
responsibilities consistently, and the Grants division has not been able to track and follow up on
these deficiencies. The bureau has weak standards for monitoring a recipient’s compliance with
grant requirements, and it has no formal post-award evaluation process that would guide program
offices when evaluating proposals from familiar organizations.

Risk Assessment

        The Grants division piloted the use of a new risk assessment tool for institutional grants
in FY 2011 and increased ECA’s awareness of risk management. The current version of the tool
only identifies particular risk factors without offering an assessment of the associated level of
risk. The risk assessment tool also does not identify grant requirements needed to mitigate the
risk.

       Informal Recommendation 18: The Bureau of Educational and Cultural Affairs should
       include an assessment of the risk level of each proposal and suggested grant requirements
       to mitigate any identified risks before the Assistant Secretary approves the proposal.

        The monitoring plan work sheet currently used by grants officer representatives for each
grant award does not address adequately the specific risks for a program or grant recipient. A
better plan to address specific risks would include more frequent monitoring, more on-site visits
at both the recipient’s headquarters and the location of award activity, requirements for more
frequent reporting, and the option of making payments on a reimbursement basis.

       Informal Recommendation 19: The Bureau of Educational and Cultural Affairs should
       design a monitoring plan that details actions to address any risks identified in the pre-
       award risk assessment.

Grants Officer Representatives

        The Grants division prioritized improving its relationship with grants officer
representatives in program offices over the past year, with more success in some offices than in
others. For example, the Youth Programs division in the Office of Citizen Exchanges welcomed
greater communication with grants officers. Nevertheless, the OIG team noted an attitude among
some program officer directors that is counterproductive to grants accountability: they consider
                                          34
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

their priority to be programs, whereas grants responsibilities are handled by the Grants division.
Program offices sometimes name a different grants officer representative without informing the
Grants division or the warranted grants officer of the change. A warranted grants officer must
formally delegate in writing the grants officer representative for every domestic grant.
Redelegation without the explicit approval of the grants officer is a violation of Grants Policy
Directive 16 and impedes the ability of the grants officer to exercise full oversight.

Recommendation 53: The Bureau of Educational and Cultural Affairs should implement
policies that require a new designation memo from the warranted grants officer before the
program office may transfer responsibility for a grant to a new grants officer representative.
(Action: ECA)

        In some cases supervisors of grants officer representatives do not understand the multiple
and important responsibilities involved in grants management. When evaluating an employee’s
performance, they focus on how well the individual carried out a program and neglect to note
how well he or she fulfilled grants oversight responsibilities. Warranted grants officers may be in
a better position to comment on this aspect of a grants officer representative’s performance.

       Informal Recommendation 20: The Bureau of Educational and Cultural Affairs should
       create a mechanism for warranted grants officers to provide input for performance
       evaluations of grants officer representatives.

        ECA sets a Department standard by requiring training before certifying a program officer
as eligible to be a grants officer representative. However, many certified grants officer
representatives completed their training years ago and do not attend refresher training to keep
them current with new developments in grants policies.

       Informal Recommendation 21: The Bureau of Educational and Cultural Affairs should
       send grants officer representatives to refresher training or workshops annually.

        In response to a recommendation from the 2009 management review, the Program
Management and Grants divisions proposed modifying ECA’s grant renewal process to allow for
option years for certain types of ECA exchanges. The OIG team agrees that this modification for
appropriate exchange programs will streamline staff resources, reduce the level of unliquidated
obligations, and alleviate the burden on recipients for reporting on numerous and sometimes
overlapping awards. Currently, a program office’s proposal analysis for renewals is one of the
only tools the bureau uses consistently for monitoring and evaluation. However, this proposal
does not adequately address the need for a replacement monitoring process that enables ECA to
conduct an interim evaluation when considering whether to renew a grant.

       Informal Recommendation 22: The Bureau of Educational and Cultural Affairs should
       implement a plan to strengthen monitoring and evaluation processes before initiating a
       pilot program for using option years.




                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Grants Closeout

       ECA includes the evaluation of a recipient’s past performance in the risk assessment for
renewals and new grant awards but does not have a formal process to record an overall
evaluation of a recipient’s compliance with the grant requirements at the end of an award. The
program offices and grants officers often rely on memory rather than on specific criteria or
analyses.

       Informal Recommendation 23: The Bureau of Educational and Cultural Affairs should
       create a system whereby the grants officer solicits written contributions from the grants
       officer representative before creating a final evaluation report and closing a grant.

        The Grants division is unable to close out a large number of grant awards due to missing
required documentation, such as a final negotiated indirect cost reimbursement agreement or
final reports. In response to this problem, the Department issued a revised grants policy directive
that now requires grants officers to proceed with the deobligation and closeout process 24
months after the end of an award, even if the final negotiated indirect cost reimbursement
agreement is still missing. However, the Department provided no guidance on how to proceed
with implementing the new requirement for older grants that do not include this policy in the
award language. Once the procedure is clear, ECA will have at least 287 grants eligible for
closeout. Over the past year, the Grants division selected some of the largest remaining grants
funds in files overdue for closeout and partially deobligated the remaining funds. However, at
least $4 million in unliquidated obligations has yet to be recovered by the Department.

Recommendation 54: The Bureau of Administration should issue guidance on how to
implement the new closeout requirements for all grants when the grantee fails to provide all
required documents. (Action: A)

Recommendation 55: The Bureau of Educational and Cultural Affairs should implement a plan
to close out outstanding grants that are more than 24 months past their end date. (Action: ECA)




                                          36
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Resource Management
  FY 2011 Bureau of Educational and Cultural Affairs – Staffing*

  U.S. Staff – Domestic                  Foreign Service              Civil Service          Total
                                               40                           415                      455
                            +
  U.S. Staff – Overseas                  Foreign Service              Civil Service          Total
                                               21                              0                     21
  *
   These numbers do not include 80+ contractors and student interns. The number of interns ranges from 7 to 35
    depending on the academic season.
  +
    Regional English language officers funded out of Washington.



  FY 2011 Resources Managed by the Bureau of Educational and Cultural Affairs

  Funding Description                                                              Amount
  Educational and Cultural Exchange Programs                                                   $598,800,000
  East-West Center                                                                              $20,958,000
  Ambassador Fund for Cultural Preservationa                                                     $5,750,000
  Cultural Antiquities Task Forcea                                                               $1,000,000
  Section 810 Feesb                                                                              $5,000,000
  Israeli Arab Scholarship Programc                                                                $375,000
  Eisenhower Exchange Fellowship Programc                                                          $500,000
  Center for Middle Eastern-Western Dialoguec                                                      $840,000
  Total:                                                                                       $633,223,000
  a
    These funds are appropriated under the Department’s Diplomatic and Consular Program but managed by
    ECA’s Cultural Heritage Center staff.
  b
    Limitation on level of fee that may be collected and credited to the account during the fiscal year for
    exchange visitor designation fees and advising recycling.
  c
    Ceiling for interest earnings from trust fund investments.

        A joint EX provides support services to approximately 700 employees in ECA and IIP as
well as to the Office of Policy, Planning, and Resources for R; the Center for Strategic
Counterterrorism Communications in the Office of the Secretary; and the Special Representative
for Muslim Communities. Under a service-level agreement, the office also provides personnel
services to the Bureau of Economic, Energy, and Business Affairs. EX has six divisions that
support ECA operations. Its Program Management and Grants divisions are discussed in the
Grants Management section of this report. Performance across the remaining divisions and
within each division is uneven. Two divisions, Human Resources and Support Services, were
rated low on customer service.

        A new EX management team is off to a positive start. It identified areas for improvement
and began implementing changes to improve services and processes. The challenge of
integrating IT staff into EX is discussed in the Information Management and Technology section
of the report.
                                                  37
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        EX’s current structure does not serve it well in part because it is a legacy of the former
U.S. Information Agency. Some EX functions are spread illogically among the EX divisions. As
noted earlier, grants-related functions in Support Services should be moved to the Grants
division and the remaining Support Services portfolios should be realigned. In addition, there is
no coherence to the four-person Customer Support division, which performs various unrelated
functions such as processing invoices, managing the health plan for exchange program
participants, and conducting space planning. The reporting structure for the Customer Support
division and its positions is unclear and would benefit from restructuring to improve
management oversight, increase efficiency, ensure cross-training, and rationalize managers’
scope of authority.

Recommendation 56: The Bureau of Educational and Cultural Affairs should eliminate the
Customer Support division and reassign its staff members to other executive office divisions.
(Action: ECA)

      Morale among EX employees is uneven. Many complained about poor communication.
EX has held “town meetings” for staff and recently developed a monthly bulletin to keep
employees informed of activities across the divisions. Additional efforts are needed.

Customer Service Issues

         Employees throughout ECA criticized the Human Resources and Support Services
divisions for poor communication, slowness in resolving issues, and lack of guidance.
Inadequate customer service is the foremost issue. Human Resources and Support Services staff
members need to be sensitive to the public relations aspects of their jobs. The Human Resources
staff, in particular, must be proactive in describing what it does and why. Human Resources
recently provided managers who are seeking to fill positions with a sheet that explains the steps
required in the hiring process. Although this is an excellent start, both Human Resources and
Support Services need to explore other ways to reach out to customers.

       Informal Recommendation 24: The Bureau of Educational and Cultural Affairs should
       implement a plan for the Human Resources and Support Services divisions to clarify their
       work processes and increase client understanding of administrative processes.

        ECA employees receive insufficient information on the status of their requests to the
Human Resources and Support Services divisions. EX management plans to implement an
automated process to allow its staff and bureau employees to request some services online and to
track the status of requests, which should reduce frustration and preempt many complaints.
However, Human Resources and Support Services staff would also benefit from customer
service training at the Foreign Service Institute or elsewhere.

       Informal Recommendation 25: The Bureau of Educational and Cultural Affairs should
       arrange for all executive office service providers to receive customer service training.

       Informal Recommendation 26: The Bureau of Educational and Cultural Affairs should
       implement a feedback mechanism for providing interim responses to clients about the
       status of their requests.
                                          38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Equal Employment Opportunity

        Few formal complaints have been registered, but allegations exist of both overt and subtle
forms of discrimination in the bureau, especially regarding gender and race. There are also
complaints about lack of diversity in the ECA front office and in program office management
positions. ECA management must work to change negative perceptions about its commitment to
diversity by implementing a revitalized EEO program, beginning with a strongly worded
statement by the Assistant Secretary.

       ECA has only one EEO counselor and needs to recruit and train two or three more. ECA
does not have bulletin boards throughout the bureau that display contact information for the
counselor or the steps needed to initiate EEO complaints. It also has not recently scheduled
mandatory EEO and diversity training classes for both managers and employees. The Office of
Civil Rights is willing to conduct this training. Correcting deficiencies and taking proactive
measures would demonstrate ECA leadership’s commitment to EEO principles and to creating
an atmosphere conducive to solving problems.

Recommendation 57: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of Civil Rights, should implement a revitalized Equal Employment Opportunity program
throughout the bureau that includes a front office declaration of commitment, the appointment
and training of new Equal Employment Opportunity counselors, and training for managers and
employees. (Action: ECA, in coordination with S/OCR)

        There are few minorities in management and senior leadership positions in ECA, another
long-standing issue that has eroded morale. The U.S. Equal Employment Opportunity
Commission provides guidance to agencies on how to create and maintain a model EEO
program.

Recommendation 58: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of Civil Rights, should adopt appropriate portions of the model Equal Employment
Opportunity program developed by the Equal Employment Opportunity Commission. (Action:
ECA, in coordination with S/OCR)

Quality of Life

         ECA has issued policy directives on telework, alternate work schedules, and job sharing
that align with those of the Department and the Office of Personnel Management. However,
many employees and managers do not understand that such programs are intended to ensure
productivity while affording some flexibility on scheduling and place of work. Some ECA
employees mistakenly regard participation in these programs as a right rather than the result of a
negotiated arrangement that meets the office’s needs as well as the employee’s preferences. On
the other hand, managers must implement and enforce polices fairly, consistently, and
transparently. The Department’s Office of Employee Relations in the Bureau of Human
Resources organized a training session for ECA managers on the proper use of these programs.
Providing similar training for all bureau employees would help to dispel misconceptions about
the intent and use of these programs.

                                          39
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 27: The Bureau of Educational and Cultural Affairs should
       implement a training program for all employees on the purposes and procedures for
       teleworking, alternate work schedules, and job sharing.

Bureau Training Programs

        Training opportunities for ECA employees are uneven. ECA does not have a bureauwide
training program, although the newly hired training and development officer is working to
develop one. Individual development plans are essential for ensuring that an employee acquires
needed job skills, but ECA uses them only sporadically. In addition to making sure that
employees receive the mandatory leadership skills training at appropriate points in their careers,
the bureau must also focus attention on ensuring that new and existing supervisors and managers
receive supervisory skills training, diversity and EEO awareness training, and Work/Life
program training.

       Informal Recommendation 28: The Bureau of Educational and Cultural Affairs should
       implement a bureauwide training plan tied to achieving its performance goals and
       mandate use of individual development plans to populate the overall training plan.

Bureau Orientation Program

        Many employees complained they had received no comprehensive orientation either to
the bureau as a whole or to their individual jobs. What passed for orientation was a detailed
check-in meant to ensure that new or transferring employees had their paperwork processed.
Learning how the Department and ECA work is important. ECA’s recent production of an
orientation video, which provides an overview of the Department, may help.

       Informal Recommendation 29: The Bureau of Educational and Cultural Affairs should
       prepare written and/or video orientation materials for new employees and, at least twice a
       year, offer new employees a comprehensive introduction to the bureau, with
       presentations by bureau leadership and office directors.

       Informal Recommendation 30: The Bureau of Educational and Cultural Affairs should
       designate an office sponsor for each new staff member and develop an office-specific
       orientation program.

Bureau Awards Program

       ECA has expanded its awards program to include an annual awards ceremony, in which
senior management participates, and an ongoing awards program by which it presents certificates
of appreciation, time-off awards, and extra mile awards for exceptional efforts throughout the
year. EX is automating the awards committee functions to facilitate the process. Some
employees feel that the same people get awards every year, with some offices participating and
recognizing their employees more than others. Many bureau managers are unfamiliar with the
process and time frames for nominating employees for awards and fail to understand that
appropriately recognizing employee achievements is part of their supervisory responsibilities.

                                         40
                             SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED

        Informal Recommendation 31: The Bureau of Educational and Cultural Affairs should
        publicize the awards program, including the rules and procedures for submitting
        nominations, and encourage all managers and supervisors to nominate worthy employees
        throughout the bureau.

Work Requirements and Performance Evaluations

        Several employees reported delays in receiving their work requirements and performance
evaluations. However, the OIG team’s spot check indicated that ECA files the vast majority of
its evaluations on time. The Department’s Systems Oversight division tracks every stage of the
evaluation process and can identify tardy submissions. Problems with supervisors not submitting
required documents can be referred to the executive director. Bureau leadership recognizes the
importance of timely performance evaluations.

Travel Management

        ECA’s travel management operations have improved since the 2004 OIG inspection
report. An EX deputy director now reviews all vouchers and all requests for premium travel. In
2010 EX processed more than 900 travel authorizations, with fewer than 20 involving business
class travel. The OIG team spot-checked several authorizations and found they were properly
justified and approved. A sampling of travel vouchers showed no prohibited expenses.

Inventory Controls

        ECA’s Certification of Inventory Reconciliation for 2009 recorded a nonexpendable
inventory shortage of 5 percent ($23,000). Per regulations, ECA reported this to the bureau’s
Property Survey Board, which determined that the discrepancies were due to the disruption
following ECA’s move to its new location. Over time, ECA located a number of the missing
items. The Certification of Inventory for 2010 noted a shortage of less than 1 percent, which is
well within acceptable variances.

Receiving

       To ensure the separation of duties and maintenance of internal controls, EX established
procedures for the receiving function that will be incorporated into a SharePoint database.
However, ECA has yet to make these procedures formal and distribute them among staff.

        Informal Recommendation 32: The Bureau of Educational and Cultural Affairs should
        complete the codification and dissemination of receiving procedures.

Purchase Card Management
                   [Redacted] (b) (5)
        ECA has       purchase cards that are held by employees in the Support Services division.
                       [Redacted] (b) (5)                                   [Redacted] (b) (5)
Most cards have a          limit, but the lead procurement specialist has a                    limit. All card
holders have passed the required training courses. Card holders perform required monthly
reconciliations; the Support Services chief serves as the administrative officer and closely
scrutinizes the payments, especially during year-end processing. The OIG team reviewed a
                                                        41
                                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

sample of the monthly reconciliations and found them to be complete and in order, with no split
payments or items over the limit.

Contract Management

        ECA has 80 full-time contractors as well as part timers who provide as-needed services
(translators, subject matter experts, etc.). Weaknesses in the performance of contracting officer
representatives (CORs) parallel those found in the performance of grants officer representatives.

        Though the Office of Acquisitions Management in the Department’s Bureau of
Administration has provided training sessions for CORs in ECA, attendance is not mandatory.
There is also frequent turnover among CORs, with some improperly passing their responsibilities
to employees with no COR certification. Employees in the Budget and Finance division stated
that some CORs have little familiarity with Federal acquisition regulations or the contracting
process. In one case, due to a COR’s lack of understanding of the acquisition process, ECA had
to seek ratification of an unauthorized commitment of $6,000, as the COR did not exercise and
process the option year on a contract before a payment was made. Additionally, due to
inattention by CORs, ECA has incurred late fees under the Prompt Payment Act; however,
thanks to scrutiny by its budget specialists and the Bureau of Resource Management, ECA has
reduced late payments.

       In September 2011, the Office of Management and Budget’s Office of Federal
Procurement Policy issued a new policy titled “Federal Acquisition Certification for Contacting
Office Representatives.” Effective January 2012, the policy revises competency requirements for
CORs and establishes a risk-based, three-tiered certification process to strengthen the COR
function. EX is working with the Office of Acquisitions Management to identify CORS who
have certifications and those who require recertification.

        The EX deputy director plans to automate much of the contract management and
procurement process, which will streamline procedures, aid tracking, enhance quality control,
and ensure accountability. The executive director wants to hold CORs accountable, including
stripping them of their authority if necessary. Another problem is that after receiving contract
packages from the CORs, procurement specialists in Support Services sometimes forward
incomplete or inaccurate procurement packages to the Office of Acquisitions Management,
which rejects these files, resulting in delays.

Recommendation 59: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Administration, should implement a training plan for all contracting officer
representatives that includes certification under the revised policy of the Office of Management
and Budget. (Action: ECA, in coordination with A)

       Informal Recommendation 33: The Bureau of Educational and Cultural Affairs should
       include contracting officer representative responsibilities in the work requirements of
       employees who perform this function.




                                          42
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Budget and Finance

        The Budget and Finance division functions well and has good relations with ECA
management and program offices and with the Bureau of Resource Management. To increase
efficiency, the division director intends to realign portfolios and cross-train employees.

         Almost all of the division’s work relates to grants and cooperative agreements (discussed
earlier in this report). Budget and Finance staff commented that the Program Management and
Grants divisions have a tight process that works well. Grantees are paid via a system
administered by the Department of Health and Human Services, which has good controls. Last
year, in coordination with directors of the Program Management and Grants divisions, Budget
and Finance staff held a training session for ECA employees on the budget process. Quarterly
meetings with program officers are also needed due to the high turnover of program staff.

       Unliquidated obligations are a Departmentwide concern. The Bureau of Resource
Management tracks unliquidated obligations and issues quarterly reports to the bureaus. In the
past, ECA had many unliquidated obligations; however, the Bureau of Resource Management
confirmed that the number has been greatly reduced. This issue is discussed more fully in the
Grants Management section.

Space

        Space problems have been an issue in ECA ever since the bureau moved into its new
quarters in 2009 and are a major contributor to low morale. Although constructed with a 10
percent expansion factor, ECA’s building is already at maximum capacity, as early staffing
projections were quickly overtaken by personnel increases. Further, R staff not part of the
original plan took 45 spaces, and the bureau received an influx of interns. Two floors not
originally intended for office use had to be converted to office space, and some program offices
were split between different floors, making communication and supervision difficult. To relieve
the space crunch, ECA plans to move 40–60 employees back to the building they vacated in
2009. ECA is also reblocking its current space, which will create as many as 40 new
workstations. During the inspection, ECA created a senior-level committee to oversee this
process and ensure that office needs are met under the new configuration.

        The biggest space controversy pertains to employees with offices located on the
building’s lowest level. Employees there complain of odors and health-related issues. To address
employees’ concerns, the Department conducted several studies, hired an independent forensics
specialist, and enlisted the help of the Department’s Office of Medical Services. The experts
determined that the odor is not caused by mold or mildew and that the smell, although
unpleasant, does not represent a health threat. In November 2011, employees raised new
concerns about air quality on the lowest floor. In response, the Bureau of Administration is
retesting the air and expects to resolve the issue quickly. Bureau of Administration and ECA
officials are engaged in addressing other long-standing space issues. In the past, there was little
transparency regarding such issues; direct and forthright communication is key for the future.

Recommendation 60: The Bureau of Administration, in coordination with the Bureau of
Educational and Cultural Affairs, should reexamine the possible causes of the discomfort and
                                          43
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

health concerns of employees stationed on the lowest levels of the facility used by the Bureau of
Educational and Cultural Affairs and implement actions to correct them. (Action: A, in
coordination with ECA)

          Informal Recommendation 34: The Bureau of Educational and Cultural Affairs should
          meet with its employees to discuss efforts to resolve building problems and address their
          health concerns and invite representatives from the Bureau of Administration and the
          Office of Medical Services to participate.

Accident and Sickness Program for Exchanges

        ECA provides health benefits to exchange program participants in accordance with the
Code of Federal Regulations. 4 Participants pay no premiums and have no deductibles. All
medical expenses are paid from ECA’s appropriation. ECA’s plan is more generous than Federal
regulations require, providing each exchange participant double the mandated coverage.

        Because of the increase in program participants from 2008 to 2010, the number of claims
submitted rose by 50 percent. The cost of approved claims rose from $5.2 million to $7.6 million
during the same period. Some claims were due to illness or accidents suffered by participants
during their U.S. programs, but others were due to participants arriving with preexisting chronic
conditions.

        These rising costs are not sustainable and need to be contained. Possible ways to achieve
this include increasing copays, expanding exclusions for preexisting conditions, eliminating
maternity coverage, enrolling students in their university or college insurance plans if available,
revamping the plan to an insurance-type program, and sending home participants who require
long-term treatment. Fulbright Board policies state that physical incapacitation is grounds for
termination of a grant; however, program managers rarely send anyone home, and it is unclear
who has the authority to make that decision. The EX director intends to examine the health
benefit plans of other agencies that operate exchange programs and consult with the Office of the
Legal Adviser to identify impediments to and policy ramifications of revamping ECA’s program.

Recommendation 61: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Legal Adviser, should submit a proposal to the Under Secretary for Public
Diplomacy and Public Affairs for approval to make the accident and sickness program for
exchanges more cost effective. (Action: ECA, in coordination with L)

Revisions to the Foreign Affairs Manual

        The FAM is the Department’s policy and procedures manual. Major FAM provisions
relating to ECA’s academic exchanges, grants, and the accident and sickness program for
exchanges have not been revised since 2002. Current FAM provisions also do not reflect the
recent transfer of IT shared services to the ECA/EX portfolio. Because Department officials and
employees depend on the FAM for an accurate record of policy, organizational structure, and
operations, it is important that ECA keep its FAM provisions up to date.

4
    22 CFR § 62.14.
                                            44
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 62: The Bureau of Educational and Cultural Affairs should appoint a
committee to review provisions in the Foreign Affairs Manual relating to its programs and
organization, report in writing what needs to be revised or added, and submit the findings for
approval and publication in the Foreign Affairs Manual. (Action: ECA)




                                         45
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Information Management and Technology
        ECA’s IT support services experienced significant change over the past 2 years with staff
receiving support from the Bureau of Information Resource Management, IT staff within
ECA/EX, or IIP, depending on the type of support needed. Despite many challenges, IT staff has
addressed customer issues and received favorable scores in OIG questionnaires. The team
identified issues in several areas that require management’s attention, including IT shared
services and Web site development, systems development life cycle processes, and cooling and
humidity controls in computer rooms.

Information Technology Shared Services

        In October 2011, IT shared services and 80 individuals (full-time and contract
employees) transferred from IIP to ECA/EX. Initial discussions between IIP and ECA on the
transfer began in January 2011, at which time IIP management made a presentation to IIP staff.
IIP then sent the Under Secretary for Management a decision package, cleared by ECA and other
stakeholders, that included organization charts, human resources and budgeting considerations,
and restructuring steps. The Under Secretary approved the package in September 2011. Despite
having months to design the move, ECA management exhibited poor planning and
communication prior to and during the IT shared services transition, which have negatively
affected IT staff morale and led to confusion about management reporting structures, job
responsibilities, and long-term goals for the IT division. IT staff members said they did not
understand the rationale for the change. They were also unclear on the official transition date and
on who their assigned direct supervisor would be. Several IT staff members questioned whom
they should contact for administrative matters and IT support issues such as licensing and
warranties. Without clarity on these issues, staff morale and productivity will continue to decline.

Recommendation 63: The Bureau of Educational and Cultural Affairs should provide
information technology personnel with a revised organizational chart outlining the reporting
structure for the information technology staff transferred to the bureau’s executive office.
(Action: ECA)

         Key information management and information security responsibilities were also in flux
at the time of the inspection. These responsibilities included certification and accreditation of
systems and applications, information systems security officer responsibilities, software
licensing and warranties, inventory, and IT contract management, among others. The customer
service provider relationship with IIP had changed, thus making it unclear which functions ECA
would handle independently and which it would coordinate with IIP.

Recommendation 64: The Bureau of Educational and Cultural Affairs should define those roles
and responsibilities the bureau will handle alone and those it will coordinate with the Bureau of
International Information Programs and disseminate this information among information
technology staff members. (Action: ECA)

        IT staff members who transitioned to ECA/EX must receive revised position descriptions
and official notification of personnel action forms. ECA management told IT staff members that

                                          46
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

they would receive both documents after the official transition date of October 23. However, a
full 2 weeks later, only a few staff members had received and been asked to sign new position
descriptions. The OIG team found that management had requested those employees to backdate
their forms to October 23 and that the new position descriptions did not reflect staff
responsibilities accurately. Without accurate position descriptions, staff members cannot be held
accountable for their performance, there may be duplication of effort, and management
expectations may not be met.

Recommendation 65: The Bureau of Educational and Cultural Affairs should provide all
information technology staff transferred to the executive office with revised notification of
personnel action forms and position descriptions that are accurate, up to date, and reflect newly
defined roles and responsibilities. (Action: ECA)

        The OIG team found issues with ECA’s management of 51 separate IT contracts totaling
more than $29.6 million. These contracts support a range of services, including application and
software development, quality assurance, technical writing, multimedia and graphics design,
database administration, and Web site management. ECA and IIP management and staff
provided OIG inspectors with different lists of assigned CORs, with COR responsibilities for
some IT contracts assigned to IIP even though the specific scope of services detailed in the
contract would be an ECA responsibility. Equally troubling, not all of the CORs for IT contracts
had completed the required training or had designation letters. (See the Resource Management
section for a recommendation on COR training.)

Recommendation 66: The Bureau of Educational and Cultural Affairs should update contracts
supporting information technology functions to reflect the appropriate contracting officer
representative and scope of services, including identification of areas of duplication and potential
consolidation as needed. (Action: ECA)

       The IT shared services transition also has budget implications. Prior to the transition,
ECA reimbursed IIP for certain IT support services. These payments included costs associated
with software licenses, operations and maintenance, hardware purchases, and configuration
management activities. According to budget personnel, the IT budget totaled around $2 million.
With the transition, the relationship between both bureaus has changed, thus requiring IIP now to
reimburse ECA. The management of both bureaus, along with the budget staff, has begun
discussions to address this issue.

Recommendation 67: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of International Information Programs, should implement a plan for handling the cost of
information technology support services under the shared services structure. (Action: ECA, in
coordination IIP)

        ECA management has not defined long-term goals and the strategic direction for IT
services. A strategic plan would assist management in aligning functions with business needs. It
would also help identify resources for projects, implementation schedules, milestones,
objectives, performance measures, key personnel, risks, and constraints. Insufficient planning by
management has resulted in IT staff being unclear on priorities and having no overall vision for

                                          47
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

IT services. A strategic plan with defined goals will provide a roadmap and establish priorities
for management and staff so that all are working toward the same end result.

Recommendation 68: The Bureau of Educational and Cultural Affairs should disseminate a
strategic plan with long-term goals for the information technology division within the executive
office. (Action: ECA)

Web Management

        Web communication is vital to advance ECA’s message and vision to internal and
external parties and is a priority for the Assistant Secretary and the ECA front office. The joint
collaboration and support of the program offices and the Public Affairs and Strategic
Communication Web team is key to the success of this effort. The roles and responsibilities of
the Web team and ECA program offices regarding Web sites are not clearly defined, which has
led to confusion and conflict about who is responsible for handling Web content, editing, and
design. Some program offices have their own Web writers and editors who update and publish
Web content without involving the Web team. On occasion, the Web team independently
researches and suggests content to program offices; in some instances, the team pulls information
directly from grantee Web sites. Although ECA uses multiple avenues to update Web content,
there is no centralized management to provide consistency in and clarity on the information
provided, which negatively affects the bureau’s ability to make its mission clear to the rest of the
Department and to external parties.

Recommendation 69: The Bureau of Educational and Cultural Affairs should define and
disseminate the roles and responsibilities of the Web team and program offices for Web
management to include, at a minimum, content development, editing, and approval. (Action:
ECA)

        The approval and clearance process for Web content also lacks clarity. Each program
office has its own internal approval process and there is no consistency among them, resulting in
content updates taking a few days to a few weeks for approval. Some program offices complain
that the Web team edits content without any discussion, leading to language not suited for the
targeted audience or to an intended message being “lost in translation.” Further complicating the
clearance process is that not all program offices have a designated point of contact. As a result,
the Web team is often unsure of whom to contact and coordinate with for Web site content
updates.

Recommendation 70: The Bureau of Educational and Cultural Affairs should implement a
standardized clearance process for Web site content management to be used by each program
office and the Web team. (Action: ECA)

Recommendation 71: The Bureau of Educational and Cultural Affairs should designate a main
point of contact within each program office to coordinate with the Web team and its respective
program personnel for Web site content management. (Action: ECA)

        Some ECA staff members voiced concerns about the redesign effort contracted to a
private company in late 2009. Several program offices do not understand how their current Web
                                          48
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

pages will fit within the overall redesign effort and fear they will lose control of their Web
presence. Others were confused as to whether all Web pages would be redesigned at the same
time or handled one at a time and whether they should continue with their own upgrade efforts.
The contract company has met with program offices to discuss the redesign effort and has even
conducted an assessment of ECA Web sites, including a review of other Department Web sites
and statistical information for benchmark analysis. Although regular communication and
information sharing from the contract company has been occurring, the OIG team encourages the
program offices to be responsive to meeting requests to help alleviate any confusion. The lack of
collaboration among all parties will hamper bureau efforts to meet its Web presence goals.

Recommendation 72: The Bureau of Educational and Cultural Affairs should implement a
schedule of monthly meetings between all program offices and the Web team to coordinate the
Web site redesign effort, including the redesign approach and schedules. (Action: ECA)

        The role of the special advisor for innovation within the Public Affairs and Strategic
Communication office is not clearly defined. The position was created to support the Assistant
Secretary’s desire to make more and better use of technology. However, many staff members
have questioned whether the advisor’s efforts are duplicative of the Web team’s activities.
Clarity on the role of the advisor will avoid duplication of effort and centralize all Web activities
appropriately within Public Affairs and Strategic Communication.

Recommendation 73: The Bureau of Educational and Cultural Affairs should define the roles
and responsibilities of the special advisor for innovation within the Public Affairs and Strategic
Communication office so that the advisor’s efforts do not duplicate those of the bureau’s Web
team. (Action: ECA)

Systems Development Life Cycle Process

       ECA is not using the systems development life cycle process effectively as a
management tool. This process defines the recommended procedure by which an organization
envisions, defines, builds, deploys, operates, and maintains its systems. The OIG team found that
user and systems requirements are defined at a high level but do not fully take into account the
end users’ specific needs. Program offices complained that IT staff does not understand their
requirements and develops applications and systems that do not support their business functions.
[Redacted] (b) (5)




        Stakeholders are not included as key participants in the development process. Application
developers meet with stakeholders at the onset of the systems development life cycle process but
not again until the product is ready for user acceptance testing, leading developers to build
solutions that fail to meet user needs and waste time and money. Control gates also need
improvement. Ideally, management should review systems documentation at each key stage
before proceeding to the next stage. However, when the OIG team reviewed the systems
development life cycle process for the Executive Office Suite and Exchange Visitors Database
applications, it found only partial documentation and no clear indication of management

                                          49
                              SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED

        involvement and approval. These deficiencies are surprising considering that ECA management
        requires quarterly updates as part of IT project planning.
[Redacted] (b) (5)




        Recommendation 74: The Bureau of Educational and Cultural Affairs should coordinate and
        manage all systems and applications development activities occurring outside the executive
        office through the information technology division. (Action: ECA)

        Recommendation 75: The Bureau of Educational and Cultural Affairs should implement and
        enforce the systems development life cycle process for all bureau systems and applications to
        include, at a minimum, the identification of user and system requirements and consultation with
        stakeholders and the review by management of deliverables at each control gate throughout the
        process. (Action: ECA)

        Recommendation 76: The Bureau of Educational and Cultural Affairs should incorporate steps
        into the systems development life cycle process that require participation by all relevant parties
        to determine the development and testing schedule for systems and applications. (Action: ECA)

        Automating Business Processes

                ECA management understands that it needs to automate processes to streamline clearance
        procedures. ECA staff is frustrated by the back and forth of paper clearances, especially in
        procurement and invoice management. Although a SharePoint site was created to handle the
        invoicing process, ECA staff does not use it and was unable to explain why. EX management
        and staff met during the inspection to discuss their approach and identify steps that need to be
        completed, including mapping business processes, creating an architecture design, determining
        which processes to automate, building a standard development platform, and performing user
        acceptance testing. Processes already identified for automation include employee check-
        in/check-out, invoicing, equipment purchasing, and IT inventory. Management anticipates
        completing the project by early FY 2013. ECA hired a management analyst to help define and
        document business processes and designated a point of contact for each division to examine its
        own processes. Steps taken thus far illustrate the importance management places on correcting
        identified weakness, and the OIG team supports this effort.

        Temperature Controls in Computer Room

                ECA’s computer room is not equipped with appropriate cooling and humidity controls.
        As a result, temperatures in the computer room regularly exceed safe levels. The ECA computer
        room houses applications and systems that support network operations for ECA, IIP, and two R
        offices. The industrial-size fan that cools the premises is insufficient. Staff has discussed creating
        an additional doorway to allow cross circulation for better temperature control. If not corrected,
                                                   50
                                       SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

overheating in the computer room could disrupt ECA’s work and potentially halt all system
operations. ECA management is aware of the problem but has not yet decided on a solution.

Recommendation 77: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Information Resource Management, should evaluate the cooling and humidity
conditions of the computer room and initiate corrective steps immediately. (Action: ECA, in
coordination with IRM)




                                        51
                            SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


       Security
               ECA’s information security program generally complies with Department 12 FAM 500
       policy. One bureau security officer manages security programs for both ECA and IIP. He is
       responsible for developing, inspecting, and advising on procedures and controls for safeguarding
       classified and administratively controlled information and for enforcing all associated security
       regulations for both bureaus. He also coordinates with other bureau security officers and the
       Department’s Diplomatic Facilities Protection division for total security oversight of the building
       in which ECA and IIP are located. ECA has not had a security incident since January 2010,
       making it among the leaders with regard to good security management. [Redacted] (b) (5)
       [Redacted] (b) (5), [Redacted] (b) (7)(F)

[Redacted] (b) (5), [Redacted] (b) (7)(F)




               Both ECA and IIP are reducing their IT security footprint by eliminating many of the 123
       individual classified network servers and ports located throughout the building. At the end of the
       project, the executive suite will have its own classified server, and the rest of ECA will share two
       classified network areas, reducing locations for conducting classified processing from all ECA


                                                        52
                                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

floor levels to just two. The OIG team supports this effort, which will save the bureau
approximately $25,000 per year.




                                          53
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Management Controls
        For FY 2011, the Assistant Secretary’s Statement of Assurance regarding management
controls, mandated by the Federal Managers’ Fiscal Compliance Act, 5 reported a significant
deficiency in the monitoring of grantees and participants in youth exchange programs. In
November 2011, the Department’s Management Control Steering Committee closed the
deficiency based on ECA’s corrective action plan and its compliance with the recommendations
in the OIG 2009 report on youth programs. At the same meeting, the committee, with the Deputy
Inspector General’s concurrence, opened a material weakness on the ECA SWT program. The
committee agreed that ECA’s corrective action plan would consist of its current initiatives to
eliminate the weaknesses as well as its compliance with SWT-related recommendations in this
inspection report.

        ECA corrected the significant management control weaknesses identified in OIG’s 2004
inspection report, including its procurement, property management, and time and attendance
processes.




5
    31 U.S.C. 3512.
                                        54
                            SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Educational and Cultural Affairs should conduct strategic
budget planning exercises for all its program offices using the review in the Office of
Professional and Cultural Exchanges as a model. (Action: ECA)

Recommendation 2: The Bureau of Educational and Cultural Affairs should implement a
written plan to hold at least three town hall meetings annually and require all offices that have
not had off-sites in the past 2 years to do so in 2012, perhaps in the context of beginning their
strategic reviews. (Action: ECA)

Recommendation 3: The Bureau of Educational and Cultural Affairs should implement a
written policy that requires all office directors to meet with their staffs at least twice monthly and
all senior managers to attend working level meetings and visit individual offices. (Action: ECA)

Recommendation 4: The Bureau of Educational and Cultural Affairs should share with all
bureau staff its weekly highlights report to the Under Secretary for Public Diplomacy and Public
Affairs and its weekly senior staff meeting notes. (Action: ECA)

Recommendation 5: The Bureau of Educational and Cultural Affairs should revise its system
for managing paper flow to achieve a more streamlined process and issue new guidelines to all
bureau staff. (Action: ECA)

Recommendation 6: The Bureau of Educational and Cultural Affairs, in coordination with the
Office of the Under Secretary for Public Diplomacy and Public Affairs, should implement
programmatic and funding mechanisms so that bureau programs can respond effectively to
urgent policy needs. (Action: ECA, in coordination with R/PPR)

Recommendation 7: The Bureau of Educational and Cultural Affairs should implement a plan
for overseas public affairs sections, bureau program offices, and implementing partners to
preregister exchange participants on the State Alumni Web site. (Action: ECA)

Recommendation 8: The Bureau of Educational and Cultural Affairs should establish standard
operating procedures for program offices and implementing partners to enter exchange
participant data accurately and expeditiously into the appropriate bureau database. (Action:
ECA)

Recommendation 9: The Bureau of Educational and Cultural Affairs should conduct a needs
assessment to improve the alumni archive and make it more functional for overseas missions.
(Action: ECA)

Recommendation 10: The Bureau of Educational and Cultural Affairs should implement a
strategic evaluation plan that integrates evaluation systematically into program design, prioritizes
which programs to evaluate and how, and produces reports that provide leadership with
information on which to base resource decisions. (Action: ECA)

Recommendation 11: The Bureau of Educational and Cultural Affairs, in coordination with
the Foreign Service Institute, should secure the services of a facilitator to advise the bureau on
                                                 55
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

how to integrate performance measurement into every bureau program. (Action: ECA, in
coordination with FSI)

Recommendation 12: The Office of the Legal Adviser should request a decision from the
Office of Management and Budget on the extraterritoriality of the Paperwork Reduction Act.
(Action: L)

Recommendation 13: The Bureau of Educational and Cultural Affairs should implement a
survey system that meets bureau needs for performance evaluation. (Action: ECA)

Recommendation 14: The Bureau of Educational and Cultural Affairs should conduct an
analysis of all its academic exchange programs, drawing upon external as well as internal
sources, issue a report assessing their cost effectiveness, and use this information to establish
funding priorities. (Action: ECA)

Recommendation 15: The Bureau of Educational and Cultural Affairs, in coordination with
the regional bureaus, should issue guidelines so that the relevant embassy is included in
communications from the bureau to binational Fulbright commissions; the guidelines should also
advise embassy representatives on binational governing boards of their oversight and
management responsibilities. (Action: ECA, in coordination with EAP, EUR, NEA, SCA, and
WHA)

Recommendation 16: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of the Under Secretary for Public Diplomacy and Public Affairs, should implement
and adhere to a systematic preacquisition planning process that is in accordance with guidelines
from the Bureau of Administration’s Office of the Procurement Executive. (Action: ECA, in
coordination with R/PPR)

Recommendation 17: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Administration, should determine whether the educational video game contractor
for the English Access Online program has met the terms of performance under the contracts
and, if not, pursue a remedy. (Action: ECA, in coordination with A)

Recommendation 18: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Human Resources, should restructure the purchasing agent position, number
S9922600, to include other duties to make full use of the position and better meet the needs of
the English Language Programs office. (Action: ECA, in coordination with DGHR)

Recommendation 19: The Bureau of Educational and Cultural Affairs, in coordination with
the Foreign Service Institute, should finalize an orientation training program and a training
continuum for regional English language officers. (Action: ECA, in coordination with FSI)

Recommendation 20: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Consular Affairs and the regional bureaus, should send a cable with appropriate
guidance to U.S. embassies in countries hosting American citizen youth on Department of State-
sponsored exchanges so that mission staff provides a uniform system and level of participant
support and monitoring. (Action: ECA, in coordination with CA, AF, EAP, EUR, NEA, SCA,
and WHA)
                                          56
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 21: The Bureau of Educational and Cultural Affairs should assign to
relevant regional bureaus the responsibility for signing DS-2019 forms for inbound exchange
visitor programs that are initiated and funded by overseas posts. (Action: ECA, in coordination
with AF, EAP, EUR, NEA, SCA, and WHA)

Recommendation 22: The Under Secretary for Public Diplomacy and Public Affairs, in
coordination with the Bureau of Educational and Cultural Affairs and the regional bureaus,
should conduct a survey to determine the extent of bureau- and embassy-initiated exchange
programs that are not funded by the Bureau of Educational and Cultural Affairs and maintain
those results by designing and implementing a database into which bureaus and embassies can
enter information to be conveyed to resource managers and strategic planners. (Action: R/PPR,
in coordination with ECA, AF, EAP, EUR, NEA, SCA, and WHA)

Recommendation 23: The Bureau of Educational and Cultural Affairs should implement an
online information resource that is easily accessible to embassies and regional bureaus, that will
provide comprehensive management and programmatic guidance for non-bureau-sponsored
exchanges, and that is supplemented by a help desk for direct inquiries. (Action: ECA)

Recommendation 24: The Bureau of Educational and Cultural Affairs should respond to
changes in the regional distribution of the workload in its Office of International Visitors by
creating separate branches for South/Central Asia and the Near East and North Africa and by
combining other branches with lesser workloads if necessary. (Action: ECA)

Recommendation 25: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Human Resources, should reprogram position number U0166200 from the New
York program branch as a second deputy director in the Office of International Visitors upon
departure of the incumbent. (Action: ECA, in coordination with DGHR)

Recommendation 26: The Bureau of Educational and Cultural Affairs should include in its
strategic planning efforts a review of the need for a separate Voluntary Visitors division in the
Office of International Visitors. (Action: ECA)

Recommendation 27: The Bureau of Educational and Cultural Affairs should carry out a pilot
program to determine whether the New York program branch of the Office of International
Visitors could effectively support other bureau offices and programs. (Action: ECA)

Recommendation 28: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Administration, should implement a method for providing the Office of Language
Services with official feedback on the performance of interpreters and others who escort
international visitors. (Action: ECA, in coordination with A)

Recommendation 29: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of the Legal Adviser, the Bureau of Resource Management, and the Bureau of
Legislative Affairs, should revise its funding distribution so that designations and compliance
staff salaries do not derive exclusively from fees the bureau receives from the sponsor
designation and Department of Homeland Security’s Student and Exchange Visitor Information
System registration processes. (Action: ECA, in coordination with L, RM, and H)

                                          57
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 30: The Bureau of Educational and Cultural Affairs should establish the
maximum number of sponsor organizations and participants for each J visa program that its
current resources and capacity can manage with appropriate quality controls. (Action: ECA)

Recommendation 31: The Bureau of Educational and Cultural Affairs should revise
regulations governing all J visa programs to establish the maximum fees sponsors and their
overseas representatives may charge participants. (Action: ECA)

Recommendation 32: The Bureau of Educational and Cultural Affairs should implement a
plan to conduct on-site reviews of every sponsoring organization at least once every 2 years as
part of the redesignation process, increasing designation fees as necessary to defray travel and
per diem costs. (Action: ECA)

Recommendation 33: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of the Legal Adviser, should provide streamlined and more stringent sanctions for
noncompliance with any regulatory requirement. (Action: ECA, in coordination with L)

Recommendation 34: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of the Legal Adviser, should implement and enforce written agreements in which
sponsors’ responsible officers and alternate responsible officers commit to deliver required
services, follow program regulations and Department of State guidance, and refrain from
prohibited practices. (Action: ECA, in coordination with L)

Recommendation 35: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of the Legal Adviser, should implement an annual program audit requirement for
designated sponsors in every J visa program. (Action: ECA, in coordination with L)

Recommendation 36: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Consular Affairs, the Office of the Legal Adviser, and the Bureau of Legislative
Affairs, should submit a proposal to the Deputy Secretary for Resources and Management to
determine the viability of ending or transferring its current responsibilities for the alien
physician, au pair, intern, teacher, and trainee programs to the Department of Labor. (Action:
ECA, in coordination with CA, L, and H)

Recommendation 37: The Bureau of Consular Affairs, in coordination with the Bureau of
Educational and Cultural Affairs, should prepare a report reflecting how its recommendations to
the Department of Homeland Security concerning Section 212(e) waiver requests properly
balance the intent of the Fulbright-Hays Act with other relevant policy considerations. (Action:
CA, in coordination with ECA)

Recommendation 38: The Bureau of Educational and Cultural Affairs should establish a
process to refer credible allegations of criminal activity to the Bureau of Diplomatic Security, the
Office of Inspector General’s Office of Investigations, or to an appropriate law enforcement
organization. (Action: ECA)

Recommendation 39: The Office of the Legal Adviser, in coordination with the Bureau of
Educational and Cultural Affairs and the Bureau of Diplomatic Security, should determine


                                          58
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

whether host family names can be checked against law enforcement databases and, if so, develop
a procedure for such checks. (Action: L, in coordination with ECA and DS)

Recommendation 40: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of the Legal Adviser, should significantly limit the number of sponsors and
participants in the Summer Work Travel program pending implementation of major regulatory
change that will allow more rigorous oversight of the designation, management, and sanctioning
of program sponsors. (Action: ECA, in coordination with L)

Recommendation 41: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Resource Management, should implement a procedure for gathering relevant
information on its designated sponsors from other Department of State and U.S. Government
entities. (Action: ECA, in coordination with RM)

Recommendation 42: The Bureau of Educational and Cultural Affairs should implement a
procedure under which a sanction in any program triggers an on-site review of all other programs
under that designated sponsor’s purview. (Action: ECA)

Recommendation 43: The Bureau of Educational and Cultural Affairs should implement clear
written procedures and standards for reviewing sponsor requests to adjust DS-2019 allotments.
(Action: ECA)

Recommendation 44: The Bureau of Educational and Cultural Affairs should implement a
substantive training program on laws and regulations for all staff charged with communicating
with sponsors or monitoring sponsor compliance. (Action: ECA)

Recommendation 45: The Bureau of Educational and Cultural Affairs should restructure the
Office of Private Sector Exchange, combining the staff responsible for sponsor designation,
program management, and compliance activities for each J visa category into a single unit.
(Action: ECA)

Recommendation 46: The Bureau of Educational and Cultural Affairs should move staff of
the Interagency Working Group on U.S. Government-Sponsored International Exchanges and
Training to the Office of Policy and Evaluation within the Bureau of Educational and Cultural
Affairs. (Action: ECA)

Recommendation 47: The Bureau of Educational and Cultural Affairs should transfer its
responsibility for 212(e) waiver requests from the Office of Private Sector Exchange to the
Office of Policy and Evaluation. (Action: ECA)

Recommendation 48: The Bureau of Educational and Cultural Affairs should transfer public-
private partnership initiatives to the Office of Policy and Evaluation. (Action: ECA)

Recommendation 49: The Bureau of Educational and Cultural Affairs should move the
management of individual grants into the Grants division of the executive office. (Action: ECA)

Recommendation 50: The Bureau of Educational and Cultural Affairs should implement
standard procedures for awarding individual grants. (Action: ECA)

                                         59
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 51: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Legislative Affairs, should increase the limitation on the grants budget for
organizations with less than 4 years’ experience from $60,000 to at least $130,000. (Action:
ECA, in coordination with H)

Recommendation 52: The Bureau of Educational and Cultural Affairs should implement
procedures that require grants officers to use the DS-4012 Foreign Assistance File form and
maintain complete paper files. (Action: ECA)

Recommendation 53: The Bureau of Educational and Cultural Affairs should implement
policies that require a new designation memo from the warranted grants officer before the
program office may transfer responsibility for a grant to a new grants officer representative.
(Action: ECA)

Recommendation 54: The Bureau of Administration should issue guidance on how to
implement the new closeout requirements for all grants when the grantee fails to provide all
required documents. (Action: A)

Recommendation 55: The Bureau of Educational and Cultural Affairs should implement a
plan to close out outstanding grants that are more than 24 months past their end date. (Action:
ECA)

Recommendation 56: The Bureau of Educational and Cultural Affairs should eliminate the
Customer Support division and reassign its staff members to other executive office divisions.
(Action: ECA)

Recommendation 57: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of Civil Rights, should implement a revitalized Equal Employment Opportunity
program throughout the bureau that includes a front office declaration of commitment, the
appointment and training of new Equal Employment Opportunity counselors, and training for
managers and employees. (Action: ECA, in coordination with S/OCR)

Recommendation 58: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of Civil Rights, should adopt appropriate portions of the model Equal Employment
Opportunity program developed by the Equal Employment Opportunity Commission. (Action:
ECA, in coordination with S/OCR)

Recommendation 59: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Administration, should implement a training plan for all contracting officer
representatives that includes certification under the revised policy of the Office of Management
and Budget. (Action: ECA, in coordination with A)

Recommendation 60: The Bureau of Administration, in coordination with the Bureau of
Educational and Cultural Affairs, should reexamine the possible causes of the discomfort and
health concerns of employees stationed on the lowest levels of the facility used by the Bureau of
Educational and Cultural Affairs and implement actions to correct them. (Action: A, in
coordination with ECA)


                                          60
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 61: The Bureau of Educational and Cultural Affairs, in coordination with
the Office of the Legal Adviser, should submit a proposal to the Under Secretary for Public
Diplomacy and Public Affairs for approval to make the accident and sickness program for
exchanges more cost effective. (Action: ECA, in coordination with L)

Recommendation 62: The Bureau of Educational and Cultural Affairs should appoint a
committee to review provisions in the Foreign Affairs Manual relating to its programs and
organization, report in writing what needs to be revised or added, and submit the findings for
approval and publication in the Foreign Affairs Manual. (Action: ECA)

Recommendation 63: The Bureau of Educational and Cultural Affairs should provide
information technology personnel with a revised organizational chart outlining the reporting
structure for the information technology staff transferred to the bureau’s executive office.
(Action: ECA)

Recommendation 64: The Bureau of Educational and Cultural Affairs should define those
roles and responsibilities the bureau will handle alone and those it will coordinate with the
Bureau of International Information Programs and disseminate this information among
information technology staff members. (Action: ECA)

Recommendation 65: The Bureau of Educational and Cultural Affairs should provide all
information technology staff transferred to the executive office with revised notification of
personnel action forms and position descriptions that are accurate, up to date, and reflect newly
defined roles and responsibilities. (Action: ECA)

Recommendation 66: The Bureau of Educational and Cultural Affairs should update contracts
supporting information technology functions to reflect the appropriate contracting officer
representative and scope of services, including identification of areas of duplication and potential
consolidation as needed. (Action: ECA)

Recommendation 67: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of International Information Programs, should implement a plan for handling the cost
of information technology support services under the shared services structure. (Action: ECA, in
coordination IIP)

Recommendation 68: The Bureau of Educational and Cultural Affairs should disseminate a
strategic plan with long-term goals for the information technology division within the executive
office. (Action: ECA)

Recommendation 69: The Bureau of Educational and Cultural Affairs should define and
disseminate the roles and responsibilities of the Web team and program offices for Web
management to include, at a minimum, content development, editing, and approval. (Action:
ECA)

Recommendation 70: The Bureau of Educational and Cultural Affairs should implement a
standardized clearance process for Web site content management to be used by each program
office and the Web team. (Action: ECA)


                                          61
                              SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

    Recommendation 71: The Bureau of Educational and Cultural Affairs should designate a main
    point of contact within each program office to coordinate with the Web team and its respective
    program personnel for Web site content management. (Action: ECA)

    Recommendation 72: The Bureau of Educational and Cultural Affairs should implement a
    schedule of monthly meetings between all program offices and the Web team to coordinate the
    Web site redesign effort, including the redesign approach and schedules. (Action: ECA)

    Recommendation 73: The Bureau of Educational and Cultural Affairs should define the roles
    and responsibilities of the special advisor for innovation within the Public Affairs and Strategic
    Communication office so that the advisor’s efforts do not duplicate those of the bureau’s Web
    team. (Action: ECA)

    Recommendation 74: The Bureau of Educational and Cultural Affairs should coordinate and
    manage all systems and applications development activities occurring outside the executive
    office through the information technology division. (Action: ECA)

    Recommendation 75: The Bureau of Educational and Cultural Affairs should implement and
    enforce the systems development life cycle process for all bureau systems and applications to
    include, at a minimum, the identification of user and system requirements and consultation with
    stakeholders and the review by management of deliverables at each control gate throughout the
    process. (Action: ECA)

    Recommendation 76: The Bureau of Educational and Cultural Affairs should incorporate
    steps into the systems development life cycle process that require participation by all relevant
    parties to determine the development and testing schedule for systems and applications. (Action:
    ECA)

    Recommendation 77: The Bureau of Educational and Cultural Affairs, in coordination with
    the Bureau of Information Resource Management, should evaluate the cooling and humidity
    conditions of the computer room and initiate corrective steps immediately. (Action: ECA, in
    coordination with IRM)
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                 62
                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
       Informal recommendations cover operational matters not requiring action by organizations
outside the inspected unit and/or the parent regional bureau. Informal recommendations will not
be subject to the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations.

Informal Recommendation 1: The Bureau of Educational and Cultural Affairs should take into
account in its resource use analysis the results of recently initiated planning efforts within the
bureau, as well as data from nonbureau sources, and develop standard procedures for cooperating
with embassies and regional bureaus on resource planning.

Informal Recommendation 2: The Bureau of Educational and Cultural Affairs should sponsor
workshops for both Civil Service and Foreign Service supervisors to improve understanding of
performance review preparation in both systems.

Informal Recommendation 3: The Bureau of Educational and Cultural Affairs should
implement a policy to upgrade Civil Service staff opportunities through support for short- and
long-term excursion tours.

Informal Recommendation 4: The Bureau of Educational and Cultural Affairs should issue a
Department Notice on the role of its Policy unit, specifying the responsibilities of and contact
information for each staff member.

Informal Recommendation 5: The Bureau of Educational and Cultural Affairs should use the
process of preparing its next strategic planning request to set clearer priorities, better measure
performance, and increase coordination.

Informal Recommendation 6: The Bureau of Educational and Cultural Affairs should
formulate and implement goals for alumni engagement, a strategy to achieve these goals, and
criteria to prioritize resource allocation.

Informal Recommendation 7: The Bureau of Educational and Cultural Affairs should work
with the Interagency Working Group on U.S. Government-Sponsored International Exchanges
and Training to implement a strategy that incorporates exchange participants from all U.S.
Government agencies into its work.

Informal Recommendation 8: The Bureau of Educational and Cultural Affairs should work
with the Office of the Under Secretary for Management to establish procedures so that the
Fulbright Scholarship Board maintains a full complement of members.

Informal Recommendation 9: The Bureau of Educational and Cultural Affairs should
implement a policy to include Fulbright Foreign Scholarship Board members in event
notifications to Fulbright program participants.

Informal Recommendation 10: The Bureau of Educational and Cultural Affairs should work
with the Office of the Under Secretary for Management to hire a temporary executive director to
                                              63
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

strengthen the work of the Fulbright Foreign Scholarship Board until the arrival of the permanent
director in summer 2012.

Informal Recommendation 11: The Bureau of Educational and Cultural Affairs should
increase interaction between regional educational advising coordinators and embassy- or
commission-based advisers through more regional workshops and video conferences.

Informal Recommendation 12: The Bureau of Educational and Cultural Affairs should review
its community college initiative program and implement changes that would make the program
more effective.

Informal Recommendation 13: The Bureau of Educational and Cultural Affairs should
reconsider plans to fill a vacant position in the Humphrey Fellowships and Institutional Linkages
branch in the Office of Global Educational Programs and instead redistribute staff workloads,
continue the branch’s cross-training efforts, and allow the vacant position to be used elsewhere
in the bureau.

Informal Recommendation 14: The Bureau of Educational and Cultural Affairs should revise
work requirements of program coordinators in the Office of International Visitors to require their
support for projects of highest priority to the office as a whole instead of only to those in regional
branches.

Informal Recommendation 15: The Bureau of Educational and Cultural Affairs should assign
an employee in the Office of International Visitors to develop and maintain a “smart book” with
documents employees need to carry out their duties, including files, instructions, formats, and
other necessary information, and distribute it to all new employees on arrival.

Informal Recommendation 16: The Bureau of Educational and Cultural Affairs should
complete its current, in-house project to revise, improve, and standardize procedures for
evaluating International Visitor projects and the performance of program agencies.

Informal Recommendation 17: The Bureau of Educational and Cultural Affairs should draft
and disseminate guidance with clear criteria for justification of the third and fourth exceptions to
competition.

Informal Recommendation 18: The Bureau of Educational and Cultural Affairs should include
an assessment of the risk level of each proposal and suggested grant requirements to mitigate any
identified risks before the Assistant Secretary approves the proposal.

Informal Recommendation 19: The Bureau of Educational and Cultural Affairs should design
a monitoring plan that details actions to address any risks identified in the pre-award risk
assessment.

Informal Recommendation 20: The Bureau of Educational and Cultural Affairs should create
a mechanism for warranted grants officers to provide input for performance evaluations of grants
officer representatives.



                                          64
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 21: The Bureau of Educational and Cultural Affairs should send
grants officer representatives to refresher training or workshops annually.

Informal Recommendation 22: The Bureau of Educational and Cultural Affairs should
implement a plan to strengthen monitoring and evaluation processes before initiating a pilot
program for using option years.

Informal Recommendation 23: The Bureau of Educational and Cultural Affairs should create
a system whereby the grants officer solicits written contributions from the grants officer
representative before creating a final evaluation report and closing a grant.

Informal Recommendation 24: The Bureau of Educational and Cultural Affairs should
implement a plan for the Human Resources and Support Services divisions to clarify their work
processes and increase client understanding of administrative processes.

Informal Recommendation 25: The Bureau of Educational and Cultural Affairs should arrange
for all executive office service providers to receive customer service training.

Informal Recommendation 26: The Bureau of Educational and Cultural Affairs should
implement a feedback mechanism for providing interim responses to clients about the status of
their requests.

Informal Recommendation 27: The Bureau of Educational and Cultural Affairs should
implement a training program for all employees on the purposes and procedures for teleworking,
alternate work schedules, and job sharing.

Informal Recommendation 28: The Bureau of Educational and Cultural Affairs should
implement a bureauwide training plan tied to achieving its performance goals and mandate use of
individual development plans to populate the overall training plan.

Informal Recommendation 29: The Bureau of Educational and Cultural Affairs should prepare
written and/or video orientation materials for new employees and, at least twice a year, offer new
employees a comprehensive introduction to the bureau, with presentations by bureau leadership
and office directors.

Informal Recommendation 30: The Bureau of Educational and Cultural Affairs should
designate an office sponsor for each new staff member and develop an office-specific orientation
program.

Informal Recommendation 31: The Bureau of Educational and Cultural Affairs should
publicize the awards program, including the rules and procedures for submitting nominations,
and encourage all managers and supervisors to nominate worthy employees throughout the
bureau.

Informal Recommendation 32: The Bureau of Educational and Cultural Affairs should
complete the codification and dissemination of receiving procedures.



                                         65
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 33: The Bureau of Educational and Cultural Affairs should include
contracting officer representative responsibilities in the work requirements of employees who
perform this function.

Informal Recommendation 34: The Bureau of Educational and Cultural Affairs should meet
with its employees to discuss efforts to resolve building problems and address their health
concerns and invite representatives from the Bureau of Administration and the Office of Medical
Services to participate.




                                        66
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                    Name       Arrival Date
Assistant Secretary                                     Adam Ereli, Acting            07/11
Principal Deputy Assistant Secretary                          Adam Ereli              01/11
Deputy Assistant Secretary for Academic
  Programs                                                 Meghann Curtis            10/11
Deputy Assistant Secretary for Professional
  Exchanges                                                  Lee Satterfield         04/11
Deputy Assistant Secretary for Private Sector
  Exchange                                               Rick Ruth, Acting           08/11
Director, Policy and Evaluation                  Matthew Lussenhop, Acting           10/11
Managing Director, Academic Programs                      Marianne Craven            10/99
Managing Director, Professional Exchanges                      Chris Miner           02/06
Director, Exchange Coordination and
  Compliance                                                   Susan Geary           07/07
Director, Office of Private Sector Designation            Ida Abell, Acting          11/11
Director, Academic Exchange Programs               Michelle Johnson, Acting
Director, English Language Programs                       Lawrence Corwin            07/09
Director, Global Education Programs                           Paul Hiemstra          10/99
Director, Citizen Exchanges                           Mary Deane Conners             10/10
Director, International Visitors                           Alma Candelaria           07/09




                                         67
                             SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


Abbreviations
COR                  Contracting officer representative
DAS                  Deputy assistant secretary
Department           U.S. Department of State
EC                   Office of Private Sector Exchange
ECA                  Bureau of Educational and Cultural Affairs
EEO                  Equal Employment Opportunity
EX                   Executive office
FAM                  Foreign Affairs Manual
Form DS-2019         Certificate of Eligibility for Exchange Visitor (J-1) Status
Fulbright-Hays Act   Mutual Educational and Cultural Exchange Act of 1961
IAWG                 Interagency Working Group on U.S. Government-Sponsored
                     International Exchanges and Training
IIP                  Bureau of International Information Programs
IT                   Information technology
OIG                  Office of Inspector General
R                    Under Secretary for Public Diplomacy and Public Affairs
SEVIS                Student and Exchange Visitor Information System
SWT                  Summer Work Travel




                                 68
                     SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
